<html>
<title> - OVERSIGHT AND STATUS OF POW/MIA ACTIVITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-158]

               OVERSIGHT AND STATUS OF POW/MIA ACTIVITIES

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 10, 2008

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
  


                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOHN M. McHUGH, New York
LORETTA SANCHEZ, California          JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  THELMA DRAKE, Virginia
PATRICK J. MURPHY, Pennsylvania      WALTER B. JONES, North Carolina
CAROL SHEA-PORTER, New Hampshire     JOE WILSON, South Carolina
NIKI TSONGAS, Massachusetts
                 Debra Wada, Professional Staff Member
                 John Chapla, Professional Staff Member
                     Rosellen Kim, Staff Assistant












                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Thursday, July 10, 2008, Oversight and Status of POW/MIA 
  Activities.....................................................     1

Appendix:

Thursday, July 10, 2008..........................................    31
                              ----------                              

                        THURSDAY, JULY 10, 2008
               OVERSIGHT AND STATUS OF POW/MIA ACTIVITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Military Personnel Subcommittee........................     2

                               WITNESSES

Crisp, Rear Adm. Donna L., USN, Commander, Joint POW/MIA 
  Accounting Command.............................................     7
Ray, Ambassador Charles A., Deputy Assistant Secretary of Defense 
  for POW/Missing Personnel Affairs..............................     3

                                APPENDIX

Prepared Statements:

    Crisp, Rear Adm. Donna L.....................................    46
    Davis, Hon. Susan A..........................................    35
    McHugh, Hon. John M..........................................    38
    Ray, Ambassador Charles A....................................    40

Documents Submitted for the Record:

    Proposals Concerning POW/MIA Issues from Ancient Wars 
      Vietnam-Korea-World War II, prepared by Ron Broward........    67
    Statement for the Record by Ann Mills Griffiths, Executive 
      Director, National League of POW/MIA Families..............    55

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions asked during the hearing.]

Questions Submitted by Members Post Hearing:

    Mrs. Davis...................................................    87
    Mr. McHugh...................................................    89
    Dr. Snyder...................................................    98
 
               OVERSIGHT AND STATUS OF POW/MIA ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                           Washington, DC, Thursday, July 10, 2008.
    The subcommittee met, pursuant to call, at 2:00 p.m. in 
room 2212, Rayburn House Office Building, Hon. Susan A. Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. Good afternoon. The hearing will come to order. 
And I want to thank our witnesses for coming. We certainly 
appreciate your being here with us. We know this is a very 
important topic.
    Our hearing today focuses on the status of Prisoner of War 
(POW)/Missing in Action (MIA) activities which this 
subcommittee has been tasked with overseeing.
    The last subcommittee oversight hearing on POW/MIA 
activities was back in October of 1998, 10 years ago. However, 
while the subcommittee did not hold hearings in the intervening 
years it has not forgotten its oversight responsibility nor has 
it been sitting idly by on this issue. And I know certainly 
that the ranking chair, Mr. McHugh, has been involved in this 
discussion over the last number of years as well, so we will 
look forward to the discussion.
    The subcommittee put forward a number of initiatives which 
have become law. For example, it is the sense of Congress that 
the United States should pursue every lead and otherwise 
maintain a relentless and thorough quest to completely account 
for the fates of those members of the Armed Forces who are 
missing or otherwise unaccounted for.
    The Department of Defense (DOD) is required to maintain a 
minimum level of personnel and budget resources for POW/MIA 
programs. The Secretary of Defense is required to submit a 
consolidated budget justification display that includes prior 
year and future year funding for specified organizations 
supporting POW/MIA activities of the Department of Defense as 
part of the President's annual budget request. And the 
committee increased funding for the joint POW/MIA Accounting 
Command by $7.5 million and the Defense Prisoner of War Missing 
Personnel Office by $200,000 above the President's budget 
request for fiscal year 2008.
    So suffice it to say, the subcommittee remains dedicated to 
the full accounting of all American POWs and those missing in 
action. We owe it to their families, but most importantly we 
owe it also to the men and women who are currently serving in 
uniform.
    We know we have many priorities today, no question about 
that. So while we focus on those who are serving in harm's way 
today, we also want to give closure to those wonderful families 
who have sacrificed so much and whose loved ones still are 
missing and we want to recover.
    So I want to welcome the Honorable Charles A. Ray, Deputy 
Assistant Secretary of Defense for POW Missing Personnel 
Affairs and Rear Admiral Donna L. Crisp, Commander, Joint POW/
MIA Accounting Command. Ambassador, Admiral, welcome once 
again. I would ask that you testify in order that I stated.
    And I know that my colleague Mr. McHugh also has some 
remarks to make. Mr. McHugh.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 35.]

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
     YORK, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. McHugh. Thank you, Madam Chair. Well, I certainly want 
to add my words of welcome to our two distinguished witnesses. 
Mr. Ambassador, Admiral, thank you both for being here. And of 
course equally important for the great job you do. And I might 
add I got to see a little bit of that first-hand in 2005 when I 
went to Vietnam and Laos and saw the good folks who do the very 
obviously important but very dangerous mission of going into 
the field and doing field activities, the very risky effort 
they put forward to, as the Chair stated so very correctly, 
something so important. This for over 30 years has been a 
national security for this government to achieve the fullest 
possible accounting of all those Americans missing or as 
prisoners of war as a result of conflicts of first the 20th and 
now the 21st century, and the challenges in achieving that 
fullest possible accounting are many, as I know you two know so 
very well.
    Just the numbers, I had a chance to review those, who yet 
today remain unaccounted for in spite of all the efforts for 
these past years for America's 20th century conflicts are 
staggering: 73,374 from World War II, 8,055 from Korea, 127 
from the Cold War, and 1,757 from the Vietnam War. And even as 
we find today in places like Iraq and Afghanistan where our 
forces are operating and searching in areas that are present 
with our military and civilian personnel, there is no certain 
result. In short, this is very, very difficult and very, very 
hard work. But still the fact of the matter is there will be no 
fullest possible accounting without the cooperation of 
governments who in the past were not always our best of friends 
and allies and getting China or North Korea or Vietnam or even 
Russia, by way of example, to open their archives, their lands, 
their waters and people to research and discovery or persuading 
them to make the unilateral revelations which we happen to 
believe are critical and we happen to believe as well they are 
very capable of doing.
    It requires more than just a DOD effort, at least in my 
judgment. I think it takes an integrated national strategy 
involving both the executive and the legislative branches of 
our government, and that kind of integrated effort is 
absolutely essential.
    In that regard I want to pay my compliments to the 
gentlelady, the distinguished Chair, for having the foresight 
and the concern to call this hearing. And clearly our two 
witnesses today, as you know, Madam Chair, had the two largest 
DOD organizations involved in the accounting effort. And I 
think while both organizations have come in for their fair 
share of criticism over the years without the Defense Prisoner 
of War/Missing Personnel Office (DPMO) or without Joint 
Prisoner of War/Missing in Action Accounting Command (JPAC) or 
organizations like them, we would have no progress at all, it 
seems to me, toward that very important national objective of 
the fullest possible accounting. I know over the last several 
years, as you noted Madam Chair, the subcommittee has been 
concerned that while the accounting missions being assigned or 
assumed by both organizations were expending the resources that 
were being provided were not. And the Chairlady cited some of 
the increases and some of the beneficial effect that this 
Congress has tried to have.
    But I think it is our view that, certainly my view, that in 
the competition for limited budget dollars neither DOD nor the 
Pacific Command have been fully committed to fully resourcing 
the accounting effort. And I would hope today's hearing will 
provide us with the opportunity to further examine those 
resourcing questions, and of course looking forward to the 
discussion today that might as well help us get some 
perspective on what kinds of adjustments we can make to the 
strategy and approach both DOD and JPAC believe are needed.
    So thank you again for being here. And Madam Chair, again 
with my appreciation to you for holding this hearing, I yield 
back and look forward to the testimony.
    [The prepared statement of Mr. McHugh can be found in the 
Appendix on page 38.]
    Mrs. Davis. Thank you. Thank you, Mr. McHugh. Ambassador 
Ray, would you like to start?

   STATEMENT OF AMBASSADOR CHARLES A. RAY, DEPUTY ASSISTANT 
     SECRETARY OF DEFENSE FOR POW/MISSING PERSONNEL AFFAIRS

    Ambassador Ray. Thank you, Madam Chairwoman, Mr. McHugh, 
distinguished members of the subcommittee, I would like to 
thank you very much for the opportunity to appear today to 
update you on the current state of our mission to account for 
the Nation's missing service personnel.
    As the Deputy Assistant Secretary of Defense for Prisoners 
of War Missing Personnel Affairs, I am responsible for policy 
oversight of this mission and for carrying out those policies 
established by the Secretary of Defense. Our worldwide team is 
made up of more than 600 specialists, men and women who are 
recognized as top professionals in their areas of science, 
intelligence, historical analysis, public outreach, family 
support and foreign area analysis.
    My team here in Washington drafts the policies which will 
lead us to the fullest possible accounting of our missing. We 
negotiate with foreign governments, draft and coordinate 
agreements and arrangements throughout the U.S. Government. It 
also declassifies and releases information to MIA families, to 
the public and to the Congress and provides support and 
assistance to our field operational agencies.
    Coming out of my final combat tour in the Vietnam War in 
the early 1970's, I was a bit skeptical, and I really had no 
expectation that our government would keep up the search for 
our missing, many of whom were personal comrades of mine. I 
thought maybe it would be done for a couple of years, but 
certainly not for more than three decades and beyond. I am 
happy now to sit here before you over 30 years later and say 
that mission continues, and the personal commitment by our 
worldwide team continues.
    Our 600 team members are posted in Washington, in Hawaii, 
in Rockville, Maryland, in Texas, in Russia, Thailand, Vietnam 
and Laos. Their travels take them to remote and inhospitable 
former battlefields where encounters with diseases, snakes and 
unexploded ordnance confirm that our mission today is not 
without risk. Nine Americans have lost their lives while 
pursuing the effort to account for our missing from past 
conflicts.
    Our mission of accounting for the missing is the embodiment 
of this Nation's commitment to those it sends into harm's way. 
We are keeping that promise to every soldier, sailor, airman 
and Marine and to their families that should you fall in battle 
this government will make every effort to return you to the 
loving arms of your family.
    For example, the more than 2,500 who were once missing from 
the Vietnam War our team has accounted for 889 and returned 
them home for burial with full military honors. Another 1,757 
are still unaccounted for from that conflict, of which the 
remains of more than 650 we deem no longer recoverable. There 
is in addition another 127 from the Cold War period, almost 
8,100 from the Korean War and more than 74,000 from World War 
II. It is comprising nearly 84,000 from those conflicts who are 
still unaccounted for. And while we may be pleased with what we 
have been able to accomplish, all of us constantly seek ways to 
improve our work to locate, identify and return these heroes to 
their families as quickly as we can.
    In that regard we face the challenges of time, the 
environment, disappearing witnesses, and a loss of possible 
crash or burial sites from conflicts of more than 60 years ago. 
We are always exploring options, looking for ways that we can 
carry out this mission better and faster. We owe that at least 
to missing service members and to their families.
    You only have to visit the central identification lab at 
JPAC in Hawaii to know what advances their scientists have 
brought to the world of forensic anthropology. As I note in all 
of our presentation to the families of the missing and to our 
veterans, it is not Crime Scene Investigation (CSI) Miami. This 
is the real world where JPAC scientists and team members don't 
have the luxury of writing a script so that the case is solved 
in less than an hour. They are the ones who are forced to work 
with the cards they have been dealt. And while I don't pretend 
to be expert in the advances in science that they are 
responsible for, I do know they are always leaning forward 
trying to do more and more all in the name of that missing 
serviceman.
    You will soon hear from Rear Admiral Donna Crisp, JPAC's 
Commander, about how her unit, through field operations, 
carries out the Department of Defense policies. I never met a 
senior officer of the United States military who set the bar so 
high for her people and for our mission. Admiral Crisp and I 
confer almost daily on one issue or another. But I believe I am 
safe in saying that every conversation, every single 
conversation, is ultimately about the family members and how we 
might do our work better and faster.
    Even though we all speak proudly of what we have been able 
to accomplish with your help, it is simply not acceptable that 
many family members have had to wait decades for answers. I 
wish it were otherwise, but realities being what they are we 
are pushing the envelope every day of every year.
    To take advantage of the brightest minds in our field I 
formed a senior study group of senior government experts to 
advise me on the way ahead in accounting for missing Americans. 
Put simply, I wanted to be sure that every agency which had 
equities in the personnel accounting mission had an opportunity 
to periodically review where we are going and where we have 
been.
    The core membership of this group includes my organization, 
Defense Prisoner of War Missing Personnel Office, JPAC, the 
Armed Forces Deoxyribonucleic Acid (DNA) Identification Lab, 
the Live Sciences Equipment Lab, the U.S. Pacific Command, U.S. 
European Command, each of the military services and the Joint 
Staff. The senior study group principals, those of flag or 
general rank, are represented at our periodic meetings by 
colonels, Navy captains or senior civilians. We meet not less 
than twice a year and discuss issues with the goal of making 
recommendations to increase efficiency and effectiveness in the 
accounting mission. This group gives Admiral Crisp and me the 
benefit of input from a wide range of experts and policymakers. 
But more importantly, it forces all of us to look at the future 
and seek to make wise decisions as we move this mission 
forward.
    Now, while I know the primary focus of these hearings is 
accounting for the missing from past conflicts, we must 
continue to look to the future as well to be better prepared to 
deal with the results of current and future conflicts. One of 
our responsibilities is that of establishing and overseeing 
U.S. policies on personnel recovery. In the current conflicts 
personnel recovery saves lives, it brings Americans home again 
alive. It is far broader than just combat search and rescue as 
it involves a wide range of options available to the government 
to bring our people out of harm's way, out of captivity and out 
of isolation behind hostile lines. At some point in the not too 
distant future we have to be prepared to make a transition from 
current conflict accounting to include personnel recovery to 
post-conflict accounting. And if we don't make the right 
decisions, the right policies now, then I don't believe we are 
living up to the promises to our men and women in uniform or to 
their families.
    I would like now to address briefly our work around the 
globe. In a general sense I believe our work in Southeast Asia 
goes well. We enjoy a continued positive relationship with 
Cambodia, with their senior leaders and other officials 
cooperating in every way possible to help us accomplish our 
mission. We are at a point where we will gradually begin 
reducing operations there because we have exhausted existing 
leads. But as always, we will continue to review individual 
cases to reinvestigate any where additional leads offer new 
information.
    We would like to see a faster pace of progress in Laos but 
we won't be deterred. Recent changes in some key personnel have 
not appeared to have a negative impact on our work. We note 
that the 25th anniversary this year of joint U.S.-Lao 
cooperation. It is theoretically possible that some of our 
younger team members who are working this issue there weren't 
even born when the first U.S.-Lao team carried out its mission. 
And to some, to me definitely, that is the embodiment of our 
motto, keeping the promise. Both the families and the 
government teams are now drawing from a younger generation, but 
the commitment and the determination remain firm. Both the U.S. 
and Laos have now agreed to exchange defense attaches, a step 
in our relationship which I think will contribute positively 
toward the effective use of our resources there. Now, there 
still exists a backlog of cases to be worked in Laos, but we 
are working to address this with the Laos government on a 
continuing basis.
    Our working relationship with Vietnam is showing steady 
progress. The economic relationship between the two countries 
continues to grow. Yet as we saw last month, the POW/MIA issue 
remains a key area of discussion in every meeting with 
Vietnamese officials. Military-to-military exchanges continue 
to evolve, offering yet another avenue to improve the bilateral 
relationship, and I believe this can only benefit our mission. 
This year we will hold a 20-year assessment of U.S. and 
Vietnamese cooperation. We will continue to work to bring the 
benefits of the evolving bilateral relationship to bear on the 
accounting mission to make it more effective and more 
efficient.
    So what does the future hold? To put the Vietnam War in 
context, it has been more than 40 years since the first U.S. 
losses there. By comparison, 40 years after World War II we 
were in the Reagan Administration. The world changed 
dramatically in those years. Former enemies became allies. We 
see that same evolution in Southeast Asia, and as our relations 
improve it should aid our accounting efforts. As dramatic as 
those changes were following World War II, since Vietnam we 
have seen profound movement on our issue, including the rising 
profile of World War II and Korean War families and more 
recently the direct threats to our national security from 
terrorism. We are all certainly aware that the competition for 
resources within our government is fierce and something we have 
to deal with on virtually a daily basis. I think sometimes we 
exceed their expectations.
    The Founding Fathers intended that there be constraints on 
the executive branch and that all branches of government 
function more effectively when there is coordination and 
cooperation among them. And we recognize, and I would like to 
express my personal and professional appreciation for the 
longstanding interest and deep support for this mission by this 
subcommittee. This coordination is especially important in 
activities relating to security and foreign affairs. As well, 
ours is a humanitarian mission, not linked directly to other 
activities, we are affected by and we do affect them. Our 
activities then must be coordinated fully within the 
interagency community and with the Congress so that we proceed 
with full awareness of any impacts across the entire 
government.
    So that we are humanitarian, we do not operate without 
limits. Some of those limits are legal and constitutional, some 
are bureaucratic, but like budgetary constraints they serve to 
shape our actions.
    Our work continues in seeking to account for the missing 
from the Korean War and World War II. We negotiated an 
arrangement with the Democratic People's Republic of Korea to 
begin recovery operations there in the summer of 1996, and 
since that time as a result of annual negotiations in 33 joint 
field operations our teams recovered the remains believed to be 
those of 229 Americans. Of those, JPAC scientists have 
identified 61 and returned them to their families.
    We temporarily suspended remains recovery operations in 
North Korea in the spring of 2005 and JPAC redirected more 
teams to South Korea and to other parts of the world. The 
forensic identification work in the lab continues, however, 
with the remains that were already recovered. And our teams 
continue to locate and identify the remains of servicemen lost 
during World War II in the South Pacific and Central Europe and 
South America and even in North America. To the families of 
those missing from this war and others we often see shock and 
amazement that the government has not forgotten their loved 
one's sacrifices.
    I would like to close my formal statement today by 
reaffirming our commitment to keeping our MIA families fully 
informed of the work we are doing on their behalf. All of our 
investigative case files are available to family members for 
review either in person or by mail. For certain intelligence 
information may be classified, we declassify it for them. And 
each month we send a team of 30 to 40 of our specialists into 
hometowns around the country where these families live to 
update them on their cases and to make our scientists and 
analysts available to them for questions.
    In addition, we meet annually in Washington with Korean 
Cold War families and with Vietnam War families. Through these 
two programs we have met face-to-face since 1995 with more than 
14,000 family members. We take very seriously our obligation to 
keep the families, the American public, and the Congress fully 
informed about what some consider our sacred mission.
    I appreciate the opportunity you have given us today, and I 
will be pleased to respond to your questions. Thank you.
    [The prepared statement of Ambassador Ray can be found in 
the Appendix on page 40.]
    Mrs. Davis. Thank you. Admiral Crisp.

 STATEMENT OF REAR ADM. DONNA L. CRISP, USN, COMMANDER, JOINT 
                   POW/MIA ACCOUNTING COMMAND

    Admiral Crisp. Madam Chair, members of the committee, this 
is the first time I am coming before you as the Commander of 
the Joint Prisoner of War/Missing in Action Accounting Command. 
I want to thank you for your support for personnel accounting, 
and I also want to thank you for your support to the military 
in uniform both abroad and at home, for civilians who have been 
lost in the field, for the veterans who focus on passionately 
returning their comrades back home, and for the families who 
have waited so long for those that are missing to return. So 
thank you so much for your support.
    As you heard from Ambassador Ray, JPAC is an integral part 
of the Department of Defense. It is a humanitarian mission, it 
is a global mission. We research, we investigate, we recover, 
and we identify military and civilians who gave their lives for 
our country and our freedom.
    We have an detachment in Thailand that provides logistic 
support for our detachment in Vietnam and Laos. Thailand also 
does the missions for Cambodia, India and Papua New Guinea.
    We are also home to the world's largest skeletal forensic 
lab. And this is a really great lab, a world class lab. And 
just to show you how proud I am of them, they have just 
completed re-accreditation on international standards by the 
American Society of Crime Labs with nothing wrong in the entire 
laboratory. So I am real proud of them, and I am sure that you 
are as well.
    JPAC currently has 354 personnel, both military and 
civilian, working on board. We have 251 military and 103 
civilians. We maintain a very high operational tempo. We do 
about 70 missions a year. That includes research and 
investigation missions. And the deployment tempo is 113 days 
average deploy time per employee.
    This year we have gone to 15 countries to look for both 
World War II, the Korean War and the Vietnam War. We have been 
to Cambodia, Vietnam, Laos, Papua New Guinea, Palau, the 
Solomon Islands, South Korea, Japan, Pagan Islands, Canada, 
Belgium, Poland, Hungary, Germany and France.
    As Ambassador Ray noted in his remarks, we talk together on 
a daily basis. I seek his frank advice and our team, both JPAC 
and DPMO, work together for a unity of effort. Our whole focus 
is accounting for those missing in action.
    Mrs. Davis. Excuse me, Admiral Crisp, if I could just let 
you know, we have a vote in about 10 minutes. So if you could 
take about another 4 or 5 minutes and then we are going to have 
to go vote and we will come back. If it is possible to complete 
your remarks that would be great, and then we will come back 
for questions.
    Admiral Crisp. Okay.
    Basically this year, what we have done this year in 
Vietnam, we have done 46 missions, and 16 for World War II and 
five for Korea. We have done a lot of host nation work. We have 
an operational plan that is out that we are reviewing. JPAC 
coordinates with host nations and also primary U.S. agencies to 
ensure mission success. In the past six months we have done 
extensive bilateral discussions with many countries. We are 
very proud we are starting to go back to the Republic of China 
and do our very first missions with the Republic of India.
    I can't over-emphasize the support of the host nations. 
Wherever we go they really want to help us find our ancestors 
that are missing from past conflicts. In Cambodia they set the 
standard, they are very cooperative, they are the blueprint by 
which other nations should follow. Laos People's Democratic 
Republic, they have sustained cooperation for 25 years. We have 
issues that we work through, but all in all that is a 
tremendously cooperative nation.
    The Socialist Republic of Vietnam we continue with a 
measured approach. We are marking our 20 years of regular 
operations. And in September we are hosting a meeting and we 
are going to basically work at reassessing everything we have 
done in the past and how we can do a better job in the future.
    The Republic of Korea I have worked with closely. We have a 
similar organization called Republic of Korea's Ministry of 
National Defense Agency for Killed in Action Recovery and 
Identification (MAKRI) that looks for 130,000 Koreans that have 
been lost during the Korean War. I met last month with the Vice 
Minister of National Defense and we talked about a memorandum 
of understanding between MAKRI and ourselves and pledged that 
we would work closely with the Republic of Korea.
    Papua New Guinea I can't say enough of. What a wonderful 
group of people. They are always open and we spend time and we 
go into the field. They provide support, safety and security 
for our people. So basically we are in consonance with your 
2000 congressional direction to work closely with them, and I 
report back they are a fantastic people.
    People's Republic of China, we just started renegotiations 
with them after five years of not going there. Again, we are 
working very hard with the support. We are focused on going 
into a mission in Dandung, which is for the Korean War. And so 
as soon as the Olympics are over we will start back up again 
with negotiations with the Republic of China.
    The Republic of India has embraced us coming there. We meet 
monthly, and we are hoping to do several recoveries in 2009.
    In Europe, although 78 percent of JPAC's work is in the 
Pacific Area of Responsibility (AOR), we do spend time in 
Europe. Much of it is burials and graves that people find. And 
so we send teams into the field to work those. My commander's 
priorities are basically safety first, safety for our teams and 
our people. That is always the most important. As Ambassador 
Ray mentioned, it is a dangerous business. And so if at any 
time I feel our troops are in danger I will call off a mission, 
and I have already done that once this year.
    Quality of life and quality of service, you can't beat 
having a great working environment. And so my focus has been to 
ensure that the people of JPAC have good office spaces, have a 
good working environment, a place where they are proud to bring 
their parents and their families. We have done a lot of 
innovative things doing military to civilian conversion. I am 
studying the pay structure under the national security 
personnel system. I am looking at recruiting and retention for 
our laboratory and our scientists. I want to make sure that 
everything that you have approved for the Department of Defense 
to do in anything that deals with human resource management, we 
are going to use all of those enablers to ensure that JPAC has 
the finest staff that we can have.
    Our headquarters building is on track and we really 
appreciate that. We are split up on three different bases. We 
have got people in 10 trailers. But the bottom line is you have 
given us the money for the design, we are going ahead with 
that. The military construction (MILCON) is on track. And so 
again I appreciate your support.
    Continuous improvement is an area that I love to focus in 
personally. And so Ambassador Ray and I have really embraced 
the challenge of looking at every single facet of personnel 
accounting and looking at it from a Lean Six Sigma kind of 
perspective of checking every function to make sure it is 
optimum and effective.
    In the area of technology application we have a geographic 
information system; in a nutshell is we are taking all the 
legacy data that has existed in people's files and we are 
putting it together so that if you are in the field and you 
want to know information on a site you are going to, you can 
click a button and find out everything that has happened, to 
include if there is any avian flu in that area.
    Phase two testing is a very old standard way of doing 
business in anthropology, archeology. We have just embraced it, 
and I think it is going to save us a lot of money and time.
    In closing, thank you for having me here to address you. 
The two of us work together. And all we focus on is soldiers, 
sailors, airmen and Marines and dedicated civilians who gave 
their lives for our country so that we can bring them home. So 
thank you very much for having me, and I look forward to your 
questions.
    [The prepared statement of Admiral Crisp can be found in 
the Appendix on page 46.]
    Mrs. Davis. Thank you, Admiral Crisp and Mr. Ambassador. We 
are going to go vote. Members are going to have to rush down 
there really quickly. It could be about 40 minutes, 45 minutes. 
So we certainly appreciate your being here. We wish we could 
have a hearing that was all together, but that doesn't always 
work for us. At least we got through your two presentations, 
and we appreciate that. We will be back. Thank you.
    [Recess.]
    Mrs. Davis. Well, thank you to everyone in the room. I know 
how warm it is in here, and we know it was a long wait. I 
estimated about 45 minutes. Sorry, I was really off. It is hard 
to tell. I just want to thank you again for your patience.
    Ambassador Ray, why don't I just start with you? I think we 
will have a few members coming in, but I am afraid that we have 
got some flights going and so members were not able to stay.
    In 2007, the Department sent to Congress a report regarding 
the organization management and budgeting of the Joint POW/MIA 
Accounting Command, and it stated that the Department has 
implemented steps that resulted in the improvements and 
organization management of budget of JPAC. And I know you have 
been through a number of areas, but could you try and just very 
specifically and pointed tell us what those were, what 
improvements you think an organization management budget 
occurred and whether or not they have begun some of those 
improvements and where you are in that process in the most 
significant areas that you would pinpoint for us? And also 
could you share with us the results of the review that looked 
at decreasing the time between recovery and identification and 
what recommendations came as a result of that review?
    Ambassador Ray. Thank you, Madam Chairman. On the issue of 
what efficiencies we have instituted, on the one hand the 
personnel accounting budget exhibit which we do has helped give 
us much more visibility across the community in the budgeting 
in terms of what is requested, what is needed and what is 
actually made available. And it has enabled me to be more 
effective and responsive in advocating when there are the 
occasional budget difficulties. The other area that we have 
made improvements, as I mentioned in my opening statement, is 
the institution of the senior study group. What this has done 
has enabled us to apply expertise across the community, not 
only to the problems that have been identified in past 
communication with the committee and with other Members of 
Congress, but to look forward at those things that might be 
problems in the future and to look at where we can find new 
efficiencies. And these are some of the general areas where we 
have achieved some improvement in process.
    And as Admiral Crisp said, we have also begun the process 
of applying business methods to everything we do. And Lean Six 
Sigma is just one. I mean, I apply my grandmother's common 
sense method, is look at it and if it ain't working figure out 
a new way to do it rather than do the same thing over and over 
again and look for a different result.
    And on the second question, if I may, I would defer to 
Admiral Crisp on that, is that the identification process is 
part of her command and she is much more I think qualified to 
address what efficiencies and changes have taken place in that 
area than I would be.
    Mrs. Davis. Okay. Thank you. That would be great. And I 
wanted to come back to just one of the budget comments you 
made. Go ahead.
    Admiral Crisp. One of the two most important changes that 
we have done as a department, the first one I would say was in 
the year 2006. And as a result of looking at the individuals 
that came out of punch bowl from the Korean War where the 
remains had been covered with a powder which destroyed DNA, 
Armed Forces DNA Identification Laboratory (AFDIL) did a 
considerable amount of research and it allows you--it is 
basically called the demineralization process. And let me 
explain it this way. If you were to look at a picture of a 
skeleton several years ago, you would see that you would have 
to have your giant leg bones, your femurs. And that would be 
your only bones for 90 percent identification. Now, after all 
the research and discoveries, mostly to try to figure out how 
to do the unknowns at Korea, your entire skeleton will give you 
a 90 percent identification. And instead of having to have a 
sample that is 2 grams, it is .2 grams. So that will accelerate 
the time between recovery and identification, particularly for 
the Vietnam War where the pieces that you find are so small. So 
that is an innovation in science, particularly as we tried to 
figure out Korean remains. That has helped all of the Vietnam 
identifications.
    For Korea itself, one of the things that the scientists 
said to me is you know we have these 208 boxes of remains which 
are probably 400 people, but we have no place to lay them out. 
Our lab is so small, we just can't lay them out. And so what 
the Navy has done is helped me find temporary space in Pearl 
Harbor. And I am taking the entire floor of an old lab building 
and I am fixing it up. So by October the laboratory will have 
increased three times in size and we will for the first time be 
able to lay out the remains from the Korean War undisturbed on 
tables so the scientists can begin piecing together all the 
people that were commingled remains.
    So those are the two things that come to mind of innovative 
things that have happened in the last couple of years to 
decrease recovery and identification (ID) time.
    Mrs. Davis. Could you give us just kind of a ballpark 
figure? I know it would differ between the wars and the time 
frame. But about how long does that take?
    Admiral Crisp. I will be honest with you, some cases I see 
come in and are solved within a week, and that is if you are 
lucky enough to find a skull and your teeth. Because if you can 
find that, you have got it made to identifying a person. After 
that it could take up to 10 years. Before, if it were just a 
tiny piece of bone and there was no way I could identify you, 
you would have been sitting there for years.
    Mrs. Davis. Does the family reference----
    Admiral Crisp. Family reference samples are very important 
because if you have a large enough sample of bone that you can 
get a DNA out of it and the family has given a reference 
sample, preferably through the maternal line, you can----
    Mrs. Davis. Is it preferably or is it only through the 
maternal?
    Admiral Crisp. Well, I will be honest with you, they are 
just now finding new ways of doing maternal, but it is not 
quite ready. So again all these struggles for the Korean War 
unknowns are producing incredible results for the entire 
country in DNA analysis. But right now I would say maternal 
reference.
    And so you would have to--I will show you how hard it would 
be. You might have to go to your grandmother's sister's 
cousins, because if you didn't happen to have sisters and your 
mother didn't happen to have sisters, you would have to go to 
your grandma and start genealogically searching down another 
path. So I realize some cases are easy and some cases are a lot 
tougher. Some could take three years to just do the 
genealogical search to find all of your fourth and fifth 
cousins.
    So that is why it takes long on some cases. Does that 
answer your question.
    Mrs. Davis. That is helpful, because I had heard that it is 
just a very, very long time.
    Admiral Crisp. Well, it is. But I will tell you, both 
Ambassador Ray and I--like I say, every process that we look at 
we tear apart. So family reference samples is the same process. 
You cut the--you know, you do the whole reference sample, and 
then it goes through the services, they do genealogical 
searches, they find the individuals, they send the sample to 
AFDIL. And what the two of us are doing, again through a Lean 
Six Sigma kind of approach, is, okay, where does every sample 
go, who has got the sample, how long is it there, do they need 
more people, what do they need to get it done so there is no 
backlog.
    So that is the kind of things that our junior officers and 
junior civilians are working together on.
    Mrs. Davis. And that is some of the liaison positions that 
help and work with the families in that case? Okay. Great. 
Thank you.
    Mr. Ambassador, I will come back in a few minutes. Mr. 
McHugh, any questions.
    Mr. McHugh. Thank you Madam Chair. As somebody who lives on 
the Canadian border I was interested to hear we had an 
operation in Canada. I thought maybe it was Benedict Arnold 
back in 1775, but I am told it was a training mission off of 
Newfoundland.
    Admiral Crisp. Yes, sir.
    Mr. McHugh. I am just curious, was that a success?
    Admiral Crisp. It was an underwater investigation and we 
haven't done it yet.
    Mr. McHugh. Well, I wish you all the best.
    Admiral Crisp. Thank you, sir.
    Mr. McHugh. I talked about, as the Chair did as well, about 
resourcing. Obviously, budgets are a difficult thing. There is 
never enough money to do all we would like to do. Lean Six 
Sigma comes out of that recognition in part, that you want to 
do all you can with whatever resources you have available. 
Still, as we get the submissions for your activities we are 
told that all your requirements are being fully funded, and yet 
as we look through from 2009 to fiscal year 2013, and yet as we 
look at some of the realities I really question if maybe we 
might go beyond full if you are fully funded. You are 
authorized for 18 field teams, but we are told you only have 
sufficient manning for 15. And the question I would have is, do 
the budgets from 2009 to 2013 provide for full manning of all 
18 teams that we have available?
    If you want to respond to that, I have got some other 
pertinent questions.
    Admiral Crisp. The manpower authorizations are there. I 
would say 86 to 90 percent manning. 90 percent, which would be 
in what we would call a C-1 category, a mission ready category, 
is a good number. I have never in my 34 years been in a command 
that was 100 percent manned without ever having a gap. So I--
and I have worked through several wars, Vietnam on forward. So 
if you are a non-combat team and you are anywhere between 86 
and 92 percent manned, that would be what I would consider to 
be optimum in wartime environments.
    Mr. McHugh. Well, not to nitpick----
    Admiral Crisp. Does that----
    Mr. McHugh. I understand what you are saying, and from a 
technical perspective on a war basis I guess that is pretty 
correct. But when you are talking about 18 or 20 divisions, a 
company here, a platoon there as not rated C-1 is one thing. 
But when you only have 18 field teams technically authorized to 
go out and to find the thousands of undiscovered remains, that 
lack to operate at 100 percent becomes a little bit more 
important, wouldn't you agree? Is it a question of money or 
just being able to recruit and get the people into the slot? 
Let us step beyond the percentage, et cetera. Why are there not 
18, if there are not, slots available and funded through 2013, 
what is the reason? You are not able to get those individuals 
or you don't expect to have the money?
    Admiral Crisp. It would not have to do with money, sir. 
There are probably a few captain slots that are not filled at 
the 2004 level. That really doesn't have to do with money. It 
just deals with manning.
    Mr. McHugh. So you are not immune from the end strength and 
deployment problems we are facing across the board?
    Admiral Crisp. For the entire Department yes, sir.
    Mr. McHugh. As I look at the budgets from 2009 through 
2013, that fully funded or all requirements funded designation 
does not of course include North Korea. Mr. Ambassador, in your 
opening comments you use the phrase temporarily left--someone 
stole my pad, but I believe it was May of 2005. When are we 
going back? That was our decision. Let us concede for the 
moment it was done for a good cause. But that was three years 
ago.
    Ambassador Ray. Sir, we are currently reviewing the 
circumstances, as all of us are aware that have changed over 
the last few weeks, and are beginning the effort to get 
interagency discussions going to make an assessment of what our 
recommendation to the President and to the national authority 
would be if the situation continues to develop in a positive 
direction.
    Mr. McHugh. Certainly given some of the declarations--I 
mean, the North Koreans have been taken off the sponsor of 
state terrorism list. They have had some pretty good 
developments with respect to denuclearization, et cetera, et 
cetera. I hope that the way in which we continue over the 
longer term to express--and I am speaking through you, not at 
you here, Mr. Ambassador--I would hope the way we continue if 
we choose to, to express displeasure with some of the actions 
of the North Koreans are not placed on the backs of those 
families of those thousands of lost souls in the North Korean 
theater. And I won't ask you to comment, but I would be 
surprised if you didn't agree with that as well. And I hope we 
can reexamine the policy.
    But it gets us back to the question, what, for example, 
would happen if all of a sudden now that theater does become 
available to us; what do we do on the budgets? Would you expect 
to be a part of any future supplemental request or have you had 
an opportunity to think about that?
    Ambassador Ray. We have in discussions with the Office of 
the Defense Comptroller actually addressed this issue. And when 
we prepared the first budget exhibit, I believe two years ago, 
the decision was made then. It was recognized that resumption 
of operations in North Korea would require a significant 
increase in budget, that that would be funded. I think the 
additional amount was about $14 million at that time.
    Now, that gets adjusted as we continue to take another look 
at requirements. And it is an estimate at best, because once we 
do go back in, of course JPAC will have to go back in and 
examine all of the equipment they left. The question of whether 
we have to replace all the equipment we left in place we will 
probably revise that.
    I would, based on what I have been told by the comptroller, 
not assume that this would be a supplemental request but that 
it would be funded out of other DOD budget lines.
    Mr. McHugh. But the recognition, more money, would be more 
essential there; that is the important thing.
    Madam Chairman, if I may, just one more quick budget 
question. I know you have others who want to question, 
obviously Ms. Tsongas and Ms. Shea-Porter.
    Government Accountability Office (GAO) took a look at this 
program, and how it became directed, and of course, it is 
rooted in the effort to find all those left behind in Vietnam, 
but over the years, through regulation and through, to a lesser 
extent, through statute, it has obviously grown. And now we are 
covering virtually every theater in which, just about every 
theater, Americans have found themselves in conflict on.
    Budgets are--there is intra- as well as interdepartmental 
politics afoot, and I don't necessarily mean that in a 
denigrating way. It is just, it is a fight.
    You are not specifically, your current charge is not 
specifically legislative. Would it help in the budget fight, 
would it give you a seat closer to the table if, in the 
discussion of an allocation of resources within the Department, 
you actually had a congressionally mandated charge to do a 
broader scope of what you are doing now?
    Ambassador Ray. It certainly with not be unwelcome if we 
had very clear mandates, but we look at what we are required to 
do and accept it, clearly.
    Mr. McHugh. Well, it would not change your scope. That is 
not my objective, and it is not a criticism of what you are 
doing. I am just trying to say, would that give you and your 
budget people an additional tool to make the arguments? You 
know, Congress has told us to do this as well. I mean, we ought 
to have X dollars more.
    Ambassador Ray. I think it probably wouldn't hurt.
    Mr. McHugh. I mean, that is something we need to take a 
look at.
    Thank you. I appreciate your responses.
    And thank you, Madam Chairman.
    Mrs. Davis. Thank you, Mr. McHugh.
    Ms. Tsongas.
    Ms. Tsongas. I would like to thank Chairwoman Davis for 
holding this important hearing, and I would also like to thank 
our witnesses for being here today and for the important work 
that you do.
    We all know how families really do need to bring closure, 
and this allows them to do that, however time consuming and 
lengthy it may be.
    But I would like to ask a question about our current 
conflicts, in particular the war in Iraq, because I happen to 
represent a district in which a young man has been missing for 
over a year.
    On May 12, 2007, Sergeant Alex Jimenez of the 10th Mountain 
Division was ambushed south of Baghdad. There has been no 
information regarding his whereabouts since that time. And, on 
June 27, the U.S. Army changed his status from ``duty status 
whereabouts unknown'' to ``missing or captured.''
    Sergeant Jimenez, as I said, is from my district. I have 
met several times with his family, and you can imagine how 
difficult this past year has been. We can only all be fortified 
by the kind of inspirational capacity they have had to deal 
with this.
    He is one of three soldiers currently designated as 
missing, and we pray that each of these young men will return 
home safely. I recognize that most of the work that JPAC and 
DPMO has focused on past conflicts and that we rightly regard 
unaccounted-for personnel from our current conflicts as 
recovery missions, but DPMO is the lead agency for personnel 
policy re-discovery within the Office of the Secretary of 
Defense.
    Ambassador Ray, to the extent possible, could you elaborate 
on our current policies for recovery in Iraq, particularly 
given the unique nature of the conflict we are engaged in 
there?
    Ambassador Ray. Thank you, ma'am.
    I am responsible for policy formulation for personnel 
recovery. The actual recovery operations, in an active theater, 
are the responsibility of the combatant commander, in this 
case, U.S. Central Command (CENTCOM). We work very closely with 
them to ensure that they have all of the assets they need to do 
this, and, to their credit, the fact that we only have three 
missing says that they are doing a very effective job.
    What we are looking at is, the phenomena that has been made 
clear in this current conflict is that there is a point when 
personnel recovery becomes active combat theatre personnel 
accounting. And we are currently working with CENTCOM 
primarily, but other theatres as well, to develop a policy that 
recognizes this overlap between accounting and recovery and 
enables us to make a seamless transition to post-conflict 
accounting if, in fact, the conflict ends and we haven't 
settled a case.
    At this point, this is still very much a work in progress. 
We are using lessons learned from our historical accounting 
from Vietnam and other conflicts. I might add, we are also 
using the lessons we are learning from the current conflict to 
help shape more efficient operations in our historical 
accounting as well.
    Ms. Tsongas. So as that transition is being made, how does 
that play itself out in the lives of these young men so that we 
don't--you know, we hear this so often between the transition 
from active duty to Veterans Affairs (VA) status, how so many 
people are sort of left in limbo for some time. I am just 
wondering if the process remains engaged so that all 
appropriate action is taken to look for these young people in 
spite of the fact that they have been missing for a year.
    Ambassador Ray. Our objective is that there will be no 
change in the tempo of trying to account for them regardless of 
the status of the conflict, and that is why I said that we are 
working very hard to establish a seamless transition so that 
when someday it is declared that hostilities are ended and that 
combatant commanders are no longer responsible, from the 
outside you will see no change in the effort to account for 
them.
    Ms. Tsongas. And what would you say the tempo is today in 
terms of the active seeking out and trying to discover their 
whereabouts?
    Ambassador Ray. It is very active. The briefings I get 
indicate that in many cases some of the units on the ground are 
taking incredible risks to try and get information as to their 
whereabouts and status.
    Ms. Tsongas. Thank you.
    Mrs. Davis. Thank you.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you, Chairwoman, for this very 
important hearing.
    And thank you to the witnesses for coming.
    We all share our absolute debt of gratitude to those who 
served. And to those who didn't come home, we have the debt 
that we need to find them and bring them. I thank you for the 
work that you are doing for this.
    I, too, have been very concerned about what is happening to 
those who are missing in action in Iraq, and I want to bring up 
Commander Speicher and ask how involved are your commands in 
locating him and the others still missing in action.
    Ambassador Ray. Thank you, ma'am.
    We currently are required, DPMO, to do a quarterly report 
to Congress on the efforts to account for Captain Speicher. 
There are intelligence or information requirements that are 
active in CENTCOM and other areas whenever there is an 
interrogation or interview with people. All of these cases, to 
include Captain Speicher, are included as those elements that 
we seek information on. That is also a very active case.
    Ms. Shea-Porter. Okay, and I am sure you are aware of a 
piece of legislation introduced in the House calling for a 
Select Committee on POW/MIA Affairs, and both of you have made 
a career as members of the armed services. Now this part of 
your job requires you to bring the remains of service members 
and heroes home to us.
    In your professional and personal opinion, do you believe 
that creating a select committee in Congress would benefit your 
mission or detract from it?
    Ambassador Ray. Ma'am, I have to, there was recently a 
Department of Defense position provided to a Member of Congress 
on that. We oppose the establishment of a select committee. 
From a professional standpoint, I fear that such a committee 
would be a distraction, could cause us to have to diminish our 
efforts to our core mission as we respond to the requirements.
    And, from my own, I have frequent contact, as do people 
from JPAC, with this committee. We feel that the current level 
of interchange and oversight serves the purpose of ensuring 
that we are doing, that we are following the congressional 
intent and that we are doing what we can with available 
resources to serve the American people.
    So the bottom line is that we oppose any such 
establishment.
    Ms. Shea-Porter. When you say ``with available resources,'' 
would more resources make the difference, or are we still 
giving it the straight-out effort, all we could do?
    Ambassador Ray. We are still constantly looking at what we 
could do to see if we are using those resources in the most 
effective way. I am reluctant to say, give me more resources, 
until I am sure that I am using the resources you are giving me 
to the best advantage.
    Ms. Shea-Porter. Thank you.
    Mrs. Davis. Thank you, Ms. Shea-Porter.
    Could you speak, Ambassador Ray, to the interagency issues 
around this, because we know that in many ways you and the 
Department in many ways shoulder the burden here, and, yet, 
many other departments, tools of government can also be used in 
this way? You mention it in your comments, obviously, recent 
pronouncements coming out of North Korea, will have an effect 
there.
    How do you see that progress? What can you point to that 
has shifted, changed, been helpful in that area? And are enough 
of these elements, with whether it is trade, you know--the 
State Department, I would hope, certainly, is part of this 
interagency work, but talk to us a little bit more about that. 
And where do you think some obvious voids are and have not 
really changed much over the years?
    Ambassador Ray. Well, our work with the interagency, Madam 
Chairman, goes on on a continuous basis. It is a big challenge 
because, within the interagency, there are a lot of competing 
elements that have to be balanced.
    I would say that, in general, the support that we get from 
the interagency has been extremely good. We get, from the State 
Department, outstanding support. A lot of what we are able to 
do abroad, we could not do if it were not for the support we 
get from our ambassadors and our consulates and from the 
geographic bureau of people in the State Department, one, who 
know the ground much better than we do but who also carry our 
water for us on many occasions.
    Other elements of government, we have had fairly good 
responses from them and including our issues and their messages 
to foreign governments when they deal with them.
    So I would not characterize it as a void. We don't win 
every round, but we do, I think, in general, win the war, and 
that is the interagency. We spend a lot of time making sure 
that the interagency understands the importance of what we do, 
and as far as the State Department and the intel community is 
concerned, they are actually a part of the community, because 
when we do Southeast Asia, when we do the Korean War, and we do 
the Cold War, the State Department and the Central Intelligence 
Agency (CIA) also have missing people in there. And they 
participate with us in outreach to families.
    Other agencies, in general, we get a very good, supportive 
response from them, the Justice Department. Federal Bureau of 
Investigation (FBI) and Drug Enforcement Administration (DEA) 
has been very supportive of what we do. And, particularly 
because we now do the personnel recovery and they have people 
who are at risk, they understand that we are all in it together 
and we have to work together.
    I would say, in general, interagency support has been good. 
It can always be better, and that is partly our responsibility 
to stay out there and make sure that they don't forget, and we 
keep making it better.
    Mrs. Davis. Is there an area specifically that you would 
want to seek some help?
    Ambassador Ray. Madam Chairman, I can't at this time think 
of any area where I would think that there is a void that we 
needed.
    We simply need to keep doing what we do and do it better.
    Mrs. Davis. But you think that the opportunity to engage 
where these issues are front and center is there.
    Ambassador Ray. Yes, ma'am.
    Mrs. Davis. Where appropriate?
    Ambassador Ray. Yes, ma'am.
    Mrs. Davis. That is very important, I think, to us, that 
there is a consistent and strong message in that regard. I 
would hope that you would call upon us, that you would call 
upon the interagency to do that.
    Ambassador Ray. Yes, ma'am.
    Mrs. Davis. Because there are some ways in which we can 
leverage this, and I think it is important that we continue to 
do that.
    Ambassador Ray. Yes, ma'am. Well, I would go so far, if I 
may, Madam Chairman, to point out that it is not only the 
interagency, and not just from my position in this job but 
having served as an ambassador and also as consul general in Ho 
Chi Min city, that the assistance we have gotten from others in 
the interagency and from travelling congressional delegations 
to carry this message to our foreign audiences has been 
extremely supportive and first-rate.
    So what I would say is, we need for people to continue to 
do what they are currently doing.
    Mrs. Davis. Thank you.
    I am going to go to Mr. McHugh, and then come back for 
another round.
    Mr. McHugh. Thank you.
    In response to that last very good question, the 
ambassador's comments, as I mentioned in my opening remarks, I 
did have a chance to make a trip through Southeast Asia, and I 
would highly recommend it to any Member who is so disposed, 
because it is an eye-opener to--I had a vision of people just 
kind of leisurely walking through fields, kicking over rocks, 
and it is quite a different challenge than that, rappelling 
down mountains, climbing up other mountains, as the ambassadors 
said in his comments, dodging snakes, and hopefully, you are 
out of there before the monsoon season starts. It really shows 
the depth of that challenge.
    I agree, Mr. Ambassador, the governments in that part of 
the world, although not as often, not always as forthcoming as 
we like, certainly from my experience, were very willing to sit 
down and talk about this. And I hope it helped in some fashion.
    I appreciated Ms. Tsongas' comments about Sergeant Jimenez. 
As someone who has the honor of representing the 10th Mountain 
Division, I would be remiss if I didn't also add the names of 
Private First Class (PFC) Byron Fouty and PFC Joseph Anzack, 
who were also involved in that attack that left two of those 
brave soldiers missing.
    It must be a very sobering pause for good folks like 
yourselves to remember at times that you are really a big 
source of hope for people like that, and there is no question 
involved there, just an underscoring of the importance of the 
work that you do.
    Mr. Ambassador, I appreciated your comments of using 
resources to their best advantage, and we all like to talk 
about that in government. It is nice to run into somebody who 
is actually thoughtful about it and trying to do it.
    So let's talk a little bit about the way ahead. It is not 
quite warm enough in here; let's warm it up a little bit.
    You know, we have got a process now that talks about ``most 
recent first'', and I can certainly see the efficacy of that. I 
am not trying to paint a stilted question here one way or 
another, but there are those who are making the argument to me, 
and I am sure the Chair and others who have had the discussion, 
that we are too resource heavy in one area, in this case 
Southeast Asia, about 70 percent, and the rest is left to go 
around somewhere else. And if you look at the rate of 
recoveries in Southeast Asia, they have held relatively steady, 
while you do have other opportunities in other places.
    To what extent and how often do you have a chance to sit 
down and contemplate that ``most recent first''? I could argue 
in support of that as well. I am not trying to tell you what to 
do. I am just curious, is that something that comes under 
thoughtful consideration? And how often do you get a chance to 
reevaluate that?
    Ambassador Ray. Sir, that is something that is currently 
being reevaluated. It is part of the mission review of the 
senior study group that I mentioned earlier, and we are looking 
at what our policy should be across all conflicts, and 
conflict-specific, and our policy in general.
    To address the comment about the resources being applied to 
one conflict or another, it is true that the Vietnam War takes 
a rather large portion of the monetary resources. That has to 
do with the nature of that terrain and the conflict as much as 
anything. Vietnam operations are much more expensive than 
others because of the requirement for paying for helicopter 
support to get teams and equipment to sites. And, as you 
mentioned, some of these sites are on ridge lines where you can 
get one helicopter in at a time. With the increase in fuel 
costs over the last couple of years, our costs to support 
operations in this area have also increased.
    There are other elements, though, of accounting across the 
conflicts that get left out when we talk about resources, and 
that is investigations, identifications, and other, and 
research.
    If we were to simply do a mathematical parsing of the money 
and divide resources up on conflict, on hard mathematical 
grounds, we run the risk of damaging the gains that we are 
making across all conflicts. If we were to reduce the resources 
that we apply now to Southeast Asia, the fairly slow rate of 
recovery and ID could be diminished even more. Therefore, it is 
not a matter of whether this conflict is most recent or not; it 
is a matter that in an area where operations are extremely 
difficult and costly, if you take away resources, you simply 
make it more difficult to do those operations.
    As we look at how we do our resources, how we allocate our 
efforts in research as well as in operations on the ground, we 
are looking at ways we can do a better job in World War II, in 
Korea, without disadvantaging any other conflict, and that 
includes looking at the current and future conflicts and the 
personnel recovery activities.
    Mrs. Davis. The last statement you made about reevaluating 
World War II, the current DOD posture, and this is a quote, 
with respect to the World War II, is the mission remains, 
quote, ``very much a work in progress,'' unquote. So as you 
look at that work in progress, at least from my perspective, it 
is a little hard to tell what the plan ahead is, and I suspect 
that is because there isn't yet one.
    Ambassador Ray. We are still working on that.
    Mr. McHugh. And you are working on that. When might that 
evaluation work be done, do you think?
    Ambassador Ray. I am really reluctant to make predictions 
on that because the group that is working on it has that and 
several other things, and usually, when I make these 
predictions, they would prove me wrong very quickly. But I 
would hope very soon.
    We have had some progress in shaping our view of how we 
should be looking at conflicts across the board, and I would 
hope that certainly before the end of this year, we would have 
a more concrete idea of how we approach the resource allocation 
and work for all the conflicts.
    Mr. McHugh. Thank you.
    Madam Chairman, if we go to another round, I could 
certainly ask a few other questions, but I know that other 
Members want to weigh in again, so I will yield back for the 
moment.
    Mrs. Davis. Yes, Ms. Shea-Porter.
    Ms. Shea-Porter. Yes, I wanted to ask you about recent 
revelations that China had a body, an American soldier's body, 
from North Korea, and I wanted to ask you to comment further on 
these revelations about American POWs taken during the 1950's 
and 1960's.
    Ambassador Ray. I believe you are referring to the 
Desautels case. We have in fact engaged with the Chinese on a 
number of occasions on trying to find out where this particular 
individual's body is buried, so far without success. There were 
others who we have information on, confirmed information, who 
were taken in but who were returned.
    Ms. Shea-Porter. This is a surprise?
    Ambassador Ray. Not really.
    Ms. Shea-Porter. Not really.
    Ambassador Ray. Not really. I mean, these are issues that 
have been a matter of our conversations with these governments 
for a long time. We have not had the success we would like.
    My hope is, having just recently signed an archival-access 
arrangement with the Chinese, that we will be able to see a 
little more progress in getting information about a lot of 
these case, not just the Korean War but Vietnam War and World 
War II as well.
    Ms. Shea-Porter. Well, this is something that POW/MIA 
groups have been talking about for a great while, as you know. 
So, this has a poignancy and a bitterness and a sense of 
tragedy to it.
    Ambassador Ray. Yes.
    Ms. Shea-Porter. I would hope that we would stay right on 
this issue.
    Thank you.
    Mrs. Davis. Mr. Murphy, do you have questions?
    Mr. Murphy. Yes, ma'am.
    I want to thank both of you for your service to our 
country.
    I am Patrick Murphy from Pennsylvania.
    And I want to open up my comment real quick and I want to 
tip my hat, even though it is not in your domain, but to the 
CIA agencies that actually just helped free three of our 
hostages over in Colombia. They did an incredible job, and the 
15 hostages over all. They did an incredible job with those 
three hostages for the past--they have been in captivity in 
Colombia with the Revolutionary Armed Forces of Colombia (FARC) 
for over five years. So I know they don't get a thank you 
enough and with the public acknowledgment of their work.
    I understand that the policy of the United States is to 
pursue the ``most recent first'' strategy in deciding how to 
allocate funding assigned to each conflict unaccounted-for 
servicemen.
    Obviously, if there is a chance that any MIA or POW 
servicemen are still alive, then we should do whatever it takes 
to rescue them.
    The ``most recent first'' tragedy leads to a funding 
breakdown where 65 percent of the funds are allocated to 
Vietnam, 20 percent of the funds to Korea, and 15 percent of 
the funds to World War II.
    But when you look at the numbers, there are over 74,000 
servicemen unaccounted for from World War II but only 8,000 
from the Korean War and about 1,700 from Vietnam.
    Again, if there is any chance that there are servicemen 
still alive, we need to pursue that vigorously, as I know you 
would already agree. However, the DPMO and JPAC estimate that 
the remains of 19,000 of the 74,000 unaccounted for World War 
II servicemen might be recoverable.
    So my question is, how much of the funding allocated to 
Vietnam is actually dedicated to a search for those possibly 
still alive? Is that funding separated from the funding used to 
recover remains?
    So what am I--I guess what I am trying to get at is, can we 
still continue to aggressively search for possibly living 
servicemen but also focusing at the same time for recovering 
and identifying the most remains possible, even if those 
remains are not from the most recent conflict?
    Admiral Crisp. If I could just share, when I have the 
percentages, I actually don't apply them to the money, although 
I could do that. I don't have that right now, but I do apply 
them to the different functions within JPAC. So I look at 
recoveries and investigations. And so, if I were to just look 
at that over a 4-year period of time: 67 percent of recoveries 
and investigations are Vietnam; 14 percent are Korean War; and 
19 percent are for World War II.
    But when I look at the laboratory and I also look at their 
level of effort, identifications are 36 percent for Vietnam; 42 
percent for World War II; 21 percent for Korea. And I also look 
at the sampling, because the scientists have to spend their 
time cutting samples and sending them to AFDIL for designation, 
so 65 percent of the samples are for the Korean War, just as an 
example, and 24 percent for Vietnam.
    So I look at the guidance given by Office of the Secretary 
of Defense (OSD), of the 65, 20 and 15, and then I try to apply 
that to all of the areas of work that we are doing and knowing 
that each war is different and just trying to ensure that we 
comply with it to the best way possible.
    Mr. Murphy. Thank you.
    Ambassador Ray. On the issue, sir, of possible living 
personnel and their recovery, we have not broken down what is 
spent on that effort, and the reason is that shapes everything 
we do. Every contact we have with governments on this issue, 
that is the number one priority.
    It is also difficult for us to break down how this is 
funded because there are other agencies besides our two that 
are involved in it. The intel, intelligence agencies have 
standing requirements on this issue. Most embassies and areas 
of interest, these are pieces of information that they would be 
responding to for us.
    So this effort, what we spend on recoveries of remains 
across the various conflicts has no impact on what we do to try 
and recover any living people, and if we should find someone 
alive, you can bet that everything else would stop while we 
took every effort to get that person back.
    Mr. Murphy. May I ask another brief question? I have a 
little bit of time left.
    For years, the Government of China has denied that any U.S. 
service member was removed from North Korea into China. And the 
Pentagon has long held that China returned all the POWs that 
were inside of China. I am not sure if the panel already 
addressed this issue. I apologize if it did.
    Obviously, last month, we all became aware of Sergeant 
Richard Desautels, who was buried in Chinese territory in 1953. 
I have a constituent, Charlotte Minnick, whose brother has been 
missing in action in Korea since June of 1952.
    I just want to make sure that I can respond to her 
effectively and just say that she could believe in her 
government that we are all working together and that we are 
going to make sure that we are being straight with her and the 
rest of Americans, because you know, it was, obviously, we have 
known for five years that there was remains in China, and yet 
we just made the American public aware of this a month ago.
    Ambassador Ray. This is true, and it is not at all unusual 
that we would provide information to the next of kin without 
providing that information publicly. There are a number of 
reasons why that might not be done.
    In terms of prisoners taken to China, as I said earlier, 
the only information we have, other than Desautels, who we have 
been told was buried in China. We know that. We are now working 
with them to try and determine where, so that we can do a 
recovery.
    The others that we have information on were prisoners who 
were taken into China for interrogation and returned.
    Mr. Murphy. Thank you, ma'am.
    Mrs. Davis. Thank you, Mr. Murphy.
    Ambassador, I know you mentioned earlier that the 
prioritizing and the apportioning issue is being looked at. I 
am just wondering, in the work that you all do and as you were 
talking about how you used the percentages or don't necessarily 
focus that with the budget, is that helpful, or would it be 
helpful to not have those kinds of apportionments?
    Ambassador Ray. We are actually looking at that issue. I 
inherited that policy. And for the last two years, it has been 
under review as to whether that is the--that makes good 
business sense to go about it, especially given that each 
conflict is very different. The areas of conflict are 
different.
    We face, for example, in Vietnam, a real serious problem 
with the type of soil there. Biologic remains don't last very 
long.
    On the other hand, in parts of Eastern Europe, in Papua, 
New Guinea, and others areas, we are quite lucky, we usually 
find entirely skeletal remains that are fairly well preserved.
    So one of the first questions I asked when I came in and 
found out that I had inherited this numerical policy is, why? 
And that has been under study. We have actually made minor 
adjustments, but the entire policy is being looked at to 
determine if it makes sense to do that, and, also, how will we 
fit that into current and future conflicts? How will the 
current conflict, when it ends, be fit into a numerical policy? 
You know, who do we take a percentage from to cover this. I, my 
own guess, just from my own assessment of how it would be done, 
is we will probably scrap the percentage policy and go to a 
more rational basis for resource allocation.
    Mrs. Davis. Well, I am glad to hear that it is being 
reviewed; not because I know better how to do it, I just think 
that it is helpful to have people taking some fresh eyes on 
that and trying to understand it better.
    If we could turn to the personnel issues for just a minute, 
because, Admiral Crisp, you mentioned earlier that it is not so 
much a matter of money in filling positions but just difficult 
in some cases to fill those positions. And I am wondering if 
you could share with us, what are some of the difficulties in 
doing that?
    The other issue is just the consolidation of operations and 
whether it makes sense to have a number of different 
operations, or whether consolidating some of that makes any 
more sense, having operations near the archives in some cases?
    How best to be more, not necessarily efficient with it, but 
also to have it work better for the people that are engaged in 
this operation?
    Admiral Crisp. I am looking right now at our laboratory, so 
when you look at the laboratory, if you are just talking 
manning--I don't have the numbers, I did it back home--the 
laboratory as a whole is manned at 93 percent. That doesn't 
really tell you the story, so you have to dig down to, well, 
what are the specialties that you are having problems with?
    And the scientists came to me, the anthropologists, and 
said, you know, we are having problems; maybe we should move 
somewhere else.
    So, from my background, I said, what is the real issue? Is 
it recruiting? Is it retention? Is it an increased capacity of 
the identification? What are we dealing with? And so they said, 
well, it is really recruiting and retention.
    So what I said is, okay, there is a suite of things that 
are available to any command in the Department of Defense to 
handle recruiting and retention issues. Have we done any of 
these? No. I said, okay.
    Well, the first thing we are going to do is we are going to 
look at robust internship programs. We are going to look at the 
National Security Personnel System, pay system. Part of that 
allows a labor market supplement. Let's do the analysis to see 
if our anthropologists are paid differently than those in the 
rest of the United States, so you know if you are basically 
shooting yourself in the foot before you even start, to do all 
of the homework. Do you have career ladders? No. What do you 
expect from your people? Do you want them to go out to the 
field and then have one or two managers? And I said, okay, you 
need to have a career ladder system for your scientists, and so 
those are all the things that we are looking at.
    What I have asked Ambassador Ray is that, rather than to 
rush into a singular person's thought of, well, gosh, if I just 
lived in Virginia, life would be fabulous, rather than to rush 
into that, to do all our homework, to do a business case 
analysis, to do the appropriate things we need to do in 
recruiting and retention, and look at, do I need to change end-
strength within my own command? Do I have too many linguists 
and not enough anthropologists? I want to look at that whole 
picture, fix the command to where I think it needs to be for an 
optimum laboratory. And then, if that doesn't work, is when I 
would come to my boss and to Ambassador Ray and say, okay, we 
need another solution.
    So I know that is not as fast as some of my constituents 
would like me to do it, but I think that is the best thing, the 
best approach.
    Mrs. Davis. Well, thank you, because I think clearly you 
are saying that there may be a way that you can have the kinds 
of qualified people that you need but to have them differently.
    Admiral Crisp. Yes, ma'am.
    Mrs. Davis. And that might bring about a much better result 
and a result that certainly serves our families. And that is 
what we are all about, is trying to find a way to do that. I 
appreciate that.
    Mr. McHugh.
    Mr. McHugh. I may just tie into the question, Admiral, you 
just responded to the Chair. I am assuming--I get in trouble 
when I do this--but I am assuming at the end of the hearing at 
some point, the Chair will move to accept into the record a 
number of documents that have been submitted to us.
    You have not had a chance to see those, so I am not going 
to quiz you on it, but one of them comes from a gentleman, Ron 
Broward, who may be familiar to you, but he lists a lot of 
thoughts and a lot of suggestions. One of the observations he 
makes is of the number of unidentified remains that are 
currently in the Punchbowl from the Korean War.
    Of course, as you all well know, those are, that figure is 
just part of the 1,200 to 1,214 number of remains that are 
currently at the central identification lab awaiting 
identifications.
    I spoke earlier about the concerns I have with respect to 
the out-year budgets of 2009 through 2013. I am just curious, 
Admiral, is that process you are undergoing right now, it would 
seem a reduction of that number would require more 
anthropologists--maybe I am wrong, I don't--scientists, 
something, more something, or rebalancing.
    So how are we going to achieve a reduction of that number, 
that backlog?
    Admiral Crisp. The first way we are going to achieve it is 
by expanding the facilities, which we did temporarily. So, by 
October, I will be able to lay out the remains so that the 
anthropologists have a better chance of identifying the Koreans 
in the 208 that were--boxes--that were given to us.
    Mr. McHugh. So part of that backlog is generated by the 
mere fact we don't have the physical space to tackle it?
    Admiral Crisp. To lay it out, yes, sir.
    With the identifications in Punchbowl, I know that the DNA 
was destroyed. All that is left, at least right now, 
scientifically, is if I have a skull with teeth in it, and, in 
fact, I just sat down with Ron, and we were going through some 
of his thoughts on a database. There are things that can be 
done, but it isn't going to be a massive fix for all of the 
unknowns at Punchbowl, and that will only take time. And when 
AFDIL and their scientists break through that barrier of 
figuring out how to get into the bone of whatever DNA might be 
left.
    So just so we all know, the Army, during the Korean War--
they didn't do it during World War II, they did not do it after 
Korean War--soaked all the bones in formaldehyde and then 
covered it with a formaldehyde case, and it did, indeed, keep 
the bones perfect but destroyed DNA. So unless we have the 
skull with the teeth, there is nothing we can do.
    I have advised that it is not prudent to dig up all of 
these heroes and put them in JPAC and leave them for some 
future advancement at AFDIL when they are honorably buried 
there at Punchbowl.
    So what I would prefer to do is to wait till that 
scientific breakthrough takes place and then take them out. 
Because as soon as you remove people from Punchbowl, new people 
come in, and then you are just left with them being at JPAC.
    Mr. McHugh. I appreciate your laying that out. Your 
description raises a question in my mind. It is hard to 
answer--it is hard to know what you don't know. However, I am 
going to ask you anyway.
    Of those 1,200 to 1,400, you presumably have a certain 
number that are non-U.S., that are Korean, or--are you sure 
they are all U.S.?
    Admiral Crisp. I know they have reported to me that there 
are some non-U.S, but the information, the data I have with me 
today, is strictly what is believed to be U.S.
    Mr. McHugh. Okay, of that 1,200 to 1,400, those with 
currently unrecoverable DNA samples is what number? Do you 
know?
    Admiral Crisp. Oh, for that, that would be about 800. Let 
me look.
    Mr. McHugh. So, basically, the Korean.
    Admiral Crisp. All of the unknowns that are in Punchbowl--
okay, 857, 857.
    Mr. McHugh. And under current method, we have no way to 
extract the DNA, without teeth?
    Admiral Crisp. The only way we can do it is if I had the 
teeth.
    So, for that reason, that would be the last group of people 
I would just begin exhuming. I prefer to take the remains of 
the 208 that were given to me from North Korea that are 
actually 400 people and begin working on those as my first line 
for Korea.
    Mr. McHugh. I understand. I would assume all of us, and I 
know you are familiar with, certainly thousands, and I don't 
have a number of individual family members, family groups that 
are concerned about the identification of a loved one that was 
lost, and I have a number of them. It is source of inspiration 
in a very important way to see these folks, after all these 
years, still care so much about a family member and be so moved 
when closure finally comes, or at least a little piece that 
takes them closer to closure.
    Many of those, and one lady and her family, Christine 
LaFrate, have been very active and have shared some questions 
with me, most of which I will submit for the record, Madam 
Chairman. But I would like to ask you one here today.
    From their experience, they know that there are really 
multiple organizations involved in the accounting effort, two 
of them of which are here today. DPMO and JPAC are the largest, 
but they have had to deal with the service casualty offices and 
other agencies. They are not so much questioning that fact, 
but, rather, they have at times been frustrated as they cite 
other families have been as well, because each of the 
government agencies responsible for POW/MIA issues apparently 
continued to individually maintain their only files on each 
unresolved case.
    And, through their experience, none of these files always 
contain all the information that another file does, and that is 
bureaucracy at its finest. They are just curious as to what 
extent we may be working to have a centralized file, if nothing 
else. We don't want to cripple that multiplicity of effort, 
necessarily, but one file.
    Admiral Crisp. I will tell you the small part that we are 
doing and on that geospatial system that we are building. It is 
basically a middle ware that begins drilling down on any legacy 
data or people's individual files in order to create a holistic 
picture of every case.
    So we are at the point where we are beta testing it in the 
field so that I can download it and a team can begin taking all 
of the data with them. And I am just beginning to share that 
with several people to test it at DPMO so that they can drill 
down with the expectation that all of our historians and all of 
our analysts and everyone who has files will be able to feed 
that into a singular system so they can all work with the same 
picture.
    Ambassador Ray. And I might answer that we are also looking 
at a project now for creating a portal so that each element of 
the community can have visibility into the files of every other 
element, which would then hopefully mitigate some of this 
bureaucratic missing of papers.
    But back to the service casualty offices, we find that 
while there are occasionally instances where one agency's files 
will maybe not have something that another has, is that having 
the Service Casualty Office be the principal point of contact 
with the family members prevents a lot of confusion and enables 
us to make sure that the families are getting a consistent 
message, that they are not getting different stories as they 
move around Washington.
    But they also don't have to run around Washington to find 
someone to talk to. That Service Casualty Office is their 
primary point of contact. Whether it is an identification made 
by JPAC or whether it is a new piece of information found by 
one of my analysts, we seldom provide that to our families 
directly ourselves except at our family update meetings 
monthly. That is given to the Service Casualty Office to be 
relayed to the family who are there.
    Mr. McHugh. Well, without question, they will be uplifted 
to hear that there is going to be some progress in that area.
    Madam Chairman, if I may just close my portion here today, 
I want to thank both the ambassador and the admiral for joining 
us, and for everybody in the audience who didn't take that hour 
or so hiatus that we did in the cool Capitol for sticking it 
out here.
    Again, I have enormous respect for the mission that you 
have taken up and the deepest admiration for those, 
particularly for those out in the field who tried to bring some 
closure and hold up one of this Nation's most, I think, 
outstanding pledges, and that is to bring everyone home and 
that full accounting, no matter how long it takes and no matter 
what the barriers are in front of us.
    I just want to again underscore the great challenge that 
you face. Finding these remains is an incredibly difficult 
chore, and it is only half the chore. Then we have to match 
them and bring them home to those that have waited for so long, 
and it is a dual challenge, each of which is of great 
dimension. I know all of us here on this subcommittee, the full 
committee, indeed the entire House, want to be as supportive as 
we can.
    With that final word of appreciation, my thanks again to 
you, Madam Chairman, for holding this hearing. I would yield 
back.
    Mrs. Davis. Thank you very much, Mr. McHugh.
    Ms. Shea-Porter. I, too, would like to thank you for your 
work. It is a grim task, and I would like to thank all those 
who do this every single day. It is the way that we honor our 
commitment to our POWs/MIAs, and they are certainly in our 
prayers and your workload every single day. Thank you for that.
    Thank you for the hearing.
    Mrs. Davis. I want to thank you as well. It certainly is a 
painstaking effort, but it is to help relieve some of the pain 
of those who have sacrificed so greatly. We appreciate that.
    I have not had an opportunity to work with this issue 
before, but I feel that you come with great seriousness, and I 
really appreciate that.
    We want to work with you to try to help, to make those 
steps come together as easily as possible, because it is quite 
difficult. And moving from one phase to another, I know, can be 
quite difficult, and we appreciate that.
    I also wanted to acknowledge the work of--there are many, 
many, people that I think we have submissions from, two 
individuals in particular, who have gone to great lengths to 
work over the years with families, and I want to acknowledge 
them and their submissions that I would ask unanimous consent 
that the written submissions be included in the record: Ann 
Mills Griffiths, the Executive Director of the National League 
of POW/MIA Families; and also Mr. Ron Broward, supported by the 
World War II Families for the Return of the Missing, the 
National Alliance of Families, the Korean War Families and the 
Korean War Veterans Association.
    And they will be submitted for the record.
    [The information referred to can be found in the Appendix 
on page 55 and page 67.]
    Mrs. Davis. Certainly members have up to five working days 
to submit any additional questions that they may have.
    Thank you very much for your testimony today. Thank you to 
all of you in the audience for being so patient and having to 
sit through this warm room today. We appreciate it. Thank you 
very much.
    [Whereupon, at 4:56 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             July 10, 2008

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 10, 2008

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 10, 2008

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 10, 2008

=======================================================================

      
                   QUESTIONS SUBMITTED BY MRS. DAVIS

    Mrs. Davis. DPMO has the responsibility of providing for the 
centralized management of POW/MIA for the Department, including 
notification to families of information from investigations and other 
agencies. There are concerns that information and action on cases are 
not being provided to families. For example, there have been cases 
where members were removed from the Last Known Alive list but families 
were not notified, or information on cases provided from private 
researchers were also not provided to families. What process has DPMO 
established to ensure that information that it obtain, action taken on 
specific cases, or identification of remains are relayed to the primary 
next of kin in a timely manner?
    Ambassador Ray. DPMO strives to keep all the service casualty 
offices fully informed of all new information that is received or 
developed on the cases of missing personnel so that information can be 
passed to the families of the missing. At the same time, DPMO is 
required by law to provide similar information from Vietnam War cases 
to the general public, which it does through the Library of Congress. 
Recently, there was a Marine Corps family who located a document in the 
Library of Congress that they had not received from the Marine Corps 
casualty office. Likewise, there was a case involving an Air Force 
family member who had not been informed of the results of the Last 
Known Alive review of their loved one's case. DPMO regrets both errors. 
Moreover, DPMO is working even more closely with the services, to 
include two biannual discussions of such issues, to ensure that the 
families receive all information on their case in a prompt manner. 
Moreover, DPMO recently assumed responsibility for compiling, 
redacting, and providing to the service casualty offices all message 
traffic from JPAC and DIA, for forwarding to the families. This effort 
has reduced by three months the time necessary for this information to 
be provided to the families.
    Mrs. Davis. The Vietnamese Prime Minister recently visited 
Washington and met with the President, Secretary of Defense and Acting 
Secretary of State. The Prime Minister reportedly pledged to allow US 
Navy ships to participate in underwater recovery operations in 
Vietnamese waters. We understand that JPAC is planning on using a 
hydrographic US Navy ship to facilitate the recovery operations. How 
does the use of a hydrographic ship facilitate the recovery operations?
    Ambassador Ray. The utilization of a US Navy hydrographic survey 
vessel should facilitate JPAC's underwater investigation processes by 
employing the vessel's state-of-the-art technology in locating and 
correlating underwater losses. The vessel will assist JPAC in 
confirming underwater loss locations and better clarifying the 
subsurface distribution of incident-related material and intra-site 
patterning of material evidence. Use of a US Navy hydrographic vessel 
will enable JPAC to conduct underwater investigations prior to any 
excavation operations.
    Mrs. Davis. The Vietnamese Prime Minister also pledged to renew 
unilateral efforts on archival records. What efforts is DPMO taking to 
leverage this level of commitment? How is this pledge different from 
those that were made in the past?
    Ambassador Ray. DPMO is preparing to follow up on Prime Minister 
Dung's commitment and re-engage the Vietnamese government to seek 
access to Vietnamese archival records that could assist our efforts to 
account for U.S. personnel missing in the Vietnam War. When we meet 
with the Vietnamese for our policy level assessment on September 17, 
2008, we will communicate his statement that the Government of Vietnam 
has archival records concerning our losses in wartime Laos and 
Cambodia, whose existence was previously generally denied, and is 
prepared to provide them unilaterally to us. This is the first time we 
have received such a high level commitment on this subject, and we will 
make every effort to ensure it will translate into meaningful results.
    Mrs. Davis. To what extent has the DPMO or JPAC raised the issue of 
adequacy of support in the collection of family reference samples by 
the casualty offices to the senior leadership of the Department? What 
has been the response?
    Ambassador Ray. DPMO has kept the Department's leadership apprised 
of progress on collecting DNA family reference samples of all 
unaccounted-for service members from World War II forward, including 
the significant advances the service casualty offices have achieved in 
recent years. In order to improve collection even further, DPMO is 
currently leading an effort involving JPAC, the service casualty 
offices, the Armed Forces DNA Laboratory (AFDIL), and the Joint Staff 
to review all aspects of the family reference sample collection 
process, identify gaps, and recommend solutions. We anticipate this 
review will result in further improvement in the efforts by all the 
organizations involved. The Department supports these efforts.
    Mrs. Davis. Should DPMO and/or JPAC have some responsibility for 
collection of family reference samples?
    Ambassador Ray. Both DPMO and JPAC have responsibilities in the DNA 
family reference sample collection process. DPMO is responsible for 
oversight and coordination of the entire process and for all the 
organizations that play a role, such as the service casualty offices, 
AFDIL, and JPAC. JPAC is responsible for identifying cases for which it 
requires samples and informing the service casualty offices of their 
requirements. The service casualty offices are responsible for 
contacting appropriate DNA family reference donors and providing them 
with collection kits. We believe that our ongoing review will result in 
improvements in each organization's performance.
    Mrs. Davis. What should be done to improve the response time in 
obtaining family reference samples of DNA?
    Ambassador Ray. The response time for obtaining DNA family 
reference samples is based on several factors, and even in relatively 
straightforward cases, collection can take several months. In those 
instances in which the service casualty offices must search for 
suitable donors, successful genealogic research can take 60-90 days. 
Casualty officers must then make contact with the donor, explain the 
requirement, and send a collection kit to the family. In some 
instances, they must make repeated contact to ensure the donor provides 
a sample and sends it to AFDIL. In cases where no suitable donor can be 
found despite genealogical research, or appropriate donors will not 
consent to provide a sample, the response time can be protracted as the 
service casualty offices seek other solutions. Despite a great amount 
of hard work by dedicated persons, the effort can stall altogether.
    We anticipate that our ongoing review of the DNA family reference 
sample process will result in some improvements in response times, but 
in many instances, finding suitable donors who are willing to provide 
samples will inherently involve a lengthy process, and sometimes we 
will not succeed.
    Mrs. Davis. What factors are inhibiting JPAC's ability to reduce 
the backlog of identifications of remains at the CIL in Hawaii? 
[Question 24, for cross-reference.]
    Admiral Crisp. The term ``backlog'' is not defined in the 
traditional sense; all 1,078 boxes of remains have been analyzed; 
however, identification is impacted by the following factors: (1) The 
quality of the evidence (in this case, the amount and type of human 
remains available for analysis with current technology), (2) the 
quality and quantity of before-death records on which to base a 
forensic comparison, (3) the quantity and quality of the scientific 
staff doing the analysis, (4) the adequacy of the laboratory 
facilities, and 5) the availability of DNA reference samples.
    Mrs. Davis. To what extent are shortages of personnel in JPAC 
contributing to the backlog or reducing the time forensic personnel can 
spend in the labs?
    Admiral Crisp. As previously addressed (Question 24), the shortage 
of qualified scientific staff is not the sole issue regarding the 
backlog; current technology does not exist to address many of the 
cases. However, trained forensic anthropologists are vital to our 
ability to establish identifications. JPAC has 18 authorized civilian 
anthropologists and 7 archeologists; 13 anthropologists and 5 
archeologists are currently assigned. Additionally, the Command 
utilizes Oak Ridge Institute for Science and Education (ORISE) fellows 
to supplement our scientific staff to accomplish our mission. We have 
seen an overall reduction in qualified ORISE applicants over the past 
five years. The shortage of assigned personnel contributes to a 
reduction of time spent in the laboratory in order to maintain the 
operations tempo of 70 team deployments per year. JPAC has taken 
aggressive action to recruit for these vacancies and is working closely 
with US Pacific Command and Hawaii's Navy Human Resource Office.
    Mrs. Davis. JPAC is undergoing a feasibility study to address these 
concerns, when do you anticipate that the study will be completed?
    Admiral Crisp. JPAC is currently conducting a detailed recruiting 
and retention review. We anticipate completing this review in October 
2008 and will forward our findings to the US Pacific Command.
    Mrs. Davis. To what extent has the DPMO or JPAC raised the issue of 
adequacy of support in the collection of family reference samples by 
the casualty offices to the senior leadership of the Department? What 
has been the response? [Question 27, for cross-reference.]
    Admiral Crisp. In 2008, JPAC recommended this complex process be 
reviewed for improvement. Analysis is being conducted by the DPMO led 
Senior Study Group comprised of executive level government officials 
from throughout the accounting community. The Accounting Community 
includes operational organizations, the Joint Staff, Combatant 
Commands, and the Services. The results of the Family Reference Sample 
process review will then be presented to a Senior Leadership Council 
for action; Senior Executive Service and General/Flag officers from 
within the accounting community. The adequacy of support for the 
collection of family references samples is not solely a military 
Service issue; it cuts across many organizations and requires support 
throughout the Department.
    Mrs. Davis. Should DPMO and/or JPAC have some responsibility for 
collection of family reference samples?
    Admiral Crisp. JPAC is responsible for providing reference sample 
collection requirements and prioritization of reference samples for 
collection to the Service Casualty Offices and the Armed Forces DNA 
Identification Laboratory. JPAC does not recommend being assigned any 
additional responsibility for direct interface with families to obtain 
their reference samples. Interfacing with the families is the 
responsibility of the military Service Casualty Offices.
    Mrs. Davis. What should be done to improve the response time in 
obtaining family reference samples of DNA? [Question 29, for cross-
reference.]
    Admiral Crisp. There are two areas which could improve the Family 
Reference Sample process: 1) Completion of the process improvement 
study being conducted by the DPMO led Senior Study Group. 2) A greater 
awareness of families of the importance of family reference samples to 
the identification process, as well as leveraging Veteran Service 
Organizations to assist in locating families of the unaccounted for 
individuals. Leveraging Veteran Service Organizations does not include 
contacting families.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MCHUGH
    Mr. McHugh. Ambassador Ray, achieving the fullest possible 
accounting for the prisoners of war and missing from the Nation's past 
and current wars is a national priority and requires an effort that is 
worldwide in scope. Furthermore, given the large numbers of service 
members unaccounted for from past wars. the effort required to achieve 
the fullest possible accounting will, among other things, require world 
class resources and structure. I am concerned, however, that neither 
DOD nor Pacific Command has a strategy, built the required 
organizations and structure, or committed the resources necessary to 
achieve the national objective of the fullest possible accounting. My 
concerns are based on the following: - The current DOD strategy treats 
the WW II accounting mission remains ``very much a work in progress,'' 
with no coherent answers apparent as to how the nation will achieve the 
fullest possible accounting for this war. DOD and JPAC funding and 
resourcing levels for the next five years are structured ``to cover 
operations at the current level for the Vietnam Conflict, and the 
Korean War, with the exception of any DPRK [North Korean] 
operations&.and provides for expanding the level of effort for World 
War II&.,'' according to a DOD report provided to the SASC a year ago 
(July 2007). Funding DPMO and JPAC for the ``current level of effort'' 
does not address the evidence of significant unfunded requirements. - 
Resourcing allocation rules provide up to 70% of those available to the 
most recent wars, leaving the largest accounting requirements for Korea 
and World War II to share the remainder. - Reorganization decisions 
that gave US Pacific Command (with its subordinate units at JPAC/
Central Identification Lab) a world-wide accounting mission, without 
giving the either PACOM or the Navy any additional resources to fund 
the mission, also eliminated the oversight of the remains recovery and 
identification process previously exercised on a world-wide basis by 
the Army as DOD's executive agent for mortuary affairs. It is not clear 
whether there is any effort to examine how the Army's significant 
capabilities could be reintegrated into the accounting effort. Given 
those concerns, how should a future accounting effort be restructured 
and resourced to achieve the fullest possible accounting on a worldwide 
scale?
    Ambassador Ray. Ideally, a future accounting effort would be 
structured and resourced to support increased research on World War II 
and Korean War losses (principally in U.S. archives), increased 
scientific staff and facilities to support remains identification for 
all conflicts, and additional remains recovery teams to provide the 
capacity to increase operations worldwide and provide short-notice, 
worldwide follow-up to recover remains lying exposed to the elements or 
sites in imminent danger of destruction by local development. Research 
should be organized to identify responsibilities for each organization 
and align all efforts to support communications, investigations, 
operations, and remains identification. The ultimate goal is to 
increase the rate of remains identified annually.
    More specifically, a future accounting effort should be 
restructured and resourced by conflict as follows:

    1.) World War II:
        a)  Increase research and analysis to:
        --  respond to queries from families and other external 
        persons;
        --  support investigations, excavations, and remains 
        identifications, and;
        --  define losses that are not recoverable.
        b)  Increase and prioritize WWII remains recovery operations 
        to:
        --  comply with Congressional guidance to pursue aviation 
        losses in the Southwest Pacific, including Papua New Guinea;
        --  respond to information provided by non-USG entities 
        identifying sites for excavation, and;
        --  focus on sites in countries where personnel accounting 
        operations can support broader National engagement goals.
        c)  Develop the Personnel Missing World War II data base to 
        enable family access and support for United States Government 
        efforts.

    2.)  Korean War:
        a)  Increase emphasis on:
        --  improving DNA identification technologies and other 
        forensic support for the identification of Korean War remains 
        already recovered and;
        --  archival research to support the identification process.

        This effort will require additional scientific staff and 
        facilities, which will also benefit other conflicts.

        b)  Establish and fund a separate initiative focused on:
        --  research to improve DNA support to remains identification 
        and possibly solve problems associated with identifying Korean 
        War remains buried as unknowns.
        c)  At the same time, to the extent the information base and 
        international access permit:
        --  maintain sufficient recovery and investigative teams to 
        investigate and recover losses on the Korean Peninsula and, 
        when relevant, China. This includes the ability to work in 
        South Korea at the same time as North Korea, when operations 
        resume in the latter.
        d)  Develop the capability to exploit our new access to China's 
        military archives.
        e)  Facilitate inter-agency planning toward a Vietnam War 
        fullest possible accounting approach to operations in the North 
        when operations resume there.

    Vietnam War:
        a)  Increase remains recovery operations to focus on:
        --  investigating cases and excavating sites while the 
        relatively perishable remains still present can still be 
        recovered, and;
        --  decrease the lengthy and longstanding backlog of recovery 
        sites in Vietnam and Laos.
        b)  Maintain analytic and research resources sufficient to 
        manage the extensive information base on each case, support 
        investigations and excavations, and respond to family and other 
        queries.
        c)  Maintain sufficient in-country Vietnamese, Lao, and 
        Cambodian language investigators sufficient enough in number to 
        exploit the aging witness population to the maximum.

    Mr. McHugh. Ambassador Ray, the budget justification material sent 
to us with the fiscal year 2009 Department of Defense request indicates 
that DPMO, JPAC and the other organizations in the accounting community 
are funded to meet 100% of their requirements, not only in 2009, but 
also through 2013. I would like to know more about the 
comprehensiveness of the requirements determination process that both 
of you go through, because it seems to me that there are indications 
that both your organizations may have substantial unfunded requirements 
for missions, money and personnel. There are significant numbers of 
remains (1200-1400) already at the Central Identification Lab in 
Hawaii, awaiting identifications. To what extent does the FY 09-13 
budget submission provide the resources to substantially reduce the 
number of remains awaiting identification? Under the FY 09-13 funding 
levels, what will be the number of remains at CIL still awaiting 
identification in 2013? [Question 8, for cross-reference.]
    Ambassador Ray. The requirements determination process for JPAC and 
DPMO is part of the Department's larger process in support of the 
President's budget request. DPMO is developing, validating, and 
prioritizing its FY09 Budget Execution Plan, mapping all requirements 
to the DPMO Strategic Plan and internally prioritizing those 
requirements to identify the mission essential efforts that warrant 
additional funding consideration. Identifying and tracking those 
requirements is a continuous process. It is our goal to mitigate all 
mission critical unfunded requirements that arise during FY09 through 
the Department's Budget Execution Process.
    DPMO identified additional FY 2010-2015 funding requirements that 
the Department will evaluate in the DoD FY 10-15 POM process. Decisions 
on these requests will be documented in future budget requests.
    JPAC will be responding to the Committee, under separate cover, 
regarding their requirements determination process and unfunded 
requirements.
    Mr. McHugh. Ambassador Ray, the budget justification material sent 
to us with the fiscal year 2009 Department of Defense request indicates 
that DPMO, JPAC and the other organizations in the accounting community 
are funded to meet 100% of their requirements, not only in 2009, but 
also through 2013. I would like to know more about the 
comprehensiveness of the requirements determination process that both 
of you go through, because it seems to me that there are indications 
that both your organizations may have substantial unfunded requirements 
for missions, money and personnel. JPAC is authorized 18 field teams, 
but we are told that they have sufficient manning for only 15. Does the 
FY09-13 budget request provide JPAC with full manning of all 18 teams?
    Ambassador Ray. Please refer to question #8 regarding our 
requirements determination process. Additionally, JPAC will be 
responding to the Committee under separate cover regarding their 
requirements process and manning issues.
    Mr. McHugh. Ambassador Ray, the budget justification material sent 
to us with the fiscal year 2009 Department of Defense request indicates 
that DPMO, JPAC and the other organizations in the accounting community 
are funded to meet 100% of their requirements, not only in 2009, but 
also through 2013. I would like to know more about the 
comprehensiveness of the requirements determination process that both 
of you go through, because it seems to me that there are indications 
that both your organizations may have substantial unfunded requirements 
for missions, money and personnel. If, as we are told, the field 
research and recovery effort by JPAC requires existing teams to 
maintain a very high optempo, a deployment-to-dwell time ratio of 1:1, 
to what extent does the FY 09-13 budget request provide additional JPAC 
manpower to reduce that high optempo?
    Ambassador Ray. Please refer to question #8 regarding our 
requirements determination process. Additionally, JPAC will be 
responding to the Committee under separate cover regarding the question 
of whether or not the FY 09-13 budget submission provides additional 
JPAC manpower to reduce their optempo.
    Mr. McHugh. Ambassador Ray, the budget justification material sent 
to us with the fiscal year 2009 Department of Defense request indicates 
that DPMO, JPAC and the other organizations in the accounting community 
are funded to meet 100% of their requirements, not only in 2009, but 
also through 2013. I would like to know more about the 
comprehensiveness of the requirements determination process that both 
of you go through, because it seems to me that there are indications 
that both your organizations may have substantial unfunded requirements 
for missions, money and personnel. We are told that JPAC forensic 
anthropologists spend about 17% of their time in the lab and 47% on 
deployments/field recoveries, compared to a DPMO standard, we are told, 
that indicates they should be spending about 50% of their time in the 
lab. Does JPAC have sufficient anthropologists to meet all mission 
requirements? Does the FY09-13 budget request provide the resources to 
allow JPAC to meet the 50% objective?
    Ambassador Ray. While we have laid out our requirements 
determination process in our response to question #8, the personnel 
accounting community is focused on solving the critical problems 
associated with forensic support and field excavations your question 
identifies. Additionally, JPAC will be responding to the Committee 
under separate cover regarding the question of whether or not they have 
sufficient anthropologists to meet all mission requirements, and how 
their budget submission meets objectives.
    Mr. McHugh. Ambassador Ray, the budget justification material sent 
to us with the fiscal year 2009 Department of Defense request indicates 
that DPMO, JPAC and the other organizations in the accounting community 
are funded to meet 100% of their requirements, not only in 2009, but 
also through 2013. I would like to know more about the 
comprehensiveness of the requirements determination process that both 
of you go through, because it seems to me that there are indications 
that both your organizations may have substantial unfunded requirements 
for missions, money and personnel. Do JPAC and DPMO maintain an 
unfunded requirements list? Can DPMO and JPAC provide that to us?
    Ambassador Ray. The requirements determination process for JPAC and 
DPMO is part of the Department's larger process in support of the 
President's budget request. DPMO is developing, validating, and 
prioritizing its FY09 Budget Execution Plan, mapping all requirements 
to the DPMO Strategic Plan and internally prioritizing those 
requirements to identify the mission essential efforts that warrant 
additional funding consideration. Identifying and tracking those 
requirements is a continuous process. It is our goal to mitigate all 
mission critical unfunded requirements that arise during FY09 through 
the Department's Budget Execution Process.
    DPMO identified additional FY 2010-2015 funding requirements that 
the Department will evaluate in the DoD FY 10-15 POM process. Decisions 
on these requests will be documented in future budget requests.
    JPAC will be responding to the Committee, under separate cover, 
regarding their requirements determination process and unfunded 
requirements.
    Mr. McHugh. Ambassador Ray, the DOD personnel accounting strategy 
allocates the available resources (largely a function of the dollars 
available), as follows: 65% for Vietnam War, 20% for Korean War (North 
Korea), and 15% for World War II. What's more, because access to North 
Korea is suspended, the Vietnam War is getting 70-75% of the resource 
allocation. The subcommittee has heard concerns that this resource 
allocation needs to be readjusted because the resource allocation 
priority on Southeast Asia has not resulted in increased 
identifications there, and that reallocation of some resources to other 
previous conflicts may result in an overall increase in recovery and 
identification of Americans MIAs from all conflicts. Is the DOD 
resource allocation and ``most recent first'' approach consistent with 
the government's objective of achieving the fullest possible accounting 
for all wars?
    Ambassador Ray. DPMO, with JPAC's assistance, is currently 
reassessing the ``most recent conflict first'' concept and the 65-20-15 
formula to determine if this approach is consistent with the 
government's objective of achieving the fullest possible accounting for 
all wars. We are developing guidance that devotes a meaningful, 
serious, and balanced level of effort to account for Americans missing 
in past conflicts, regardless of the conflict, and one that recognizes 
this is an enduring mission that will go on for the foreseeable future. 
As part of this effort, we are discussing overarching guidance that 
will apply to all conflicts, as well as a summary of the direction for 
each conflict, based on its own unique requirements. We look forward to 
sharing the results of our deliberations with the Committee as soon as 
they are complete.
    Mr. McHugh. Ambassador Ray, the DOD personnel accounting strategy 
allocates the available resources (largely a function of the dollars 
available), as follows: 65% for Vietnam War, 20% for Korean War (North 
Korea), and 15% for World War II. What's more, because access to North 
Korea is suspended, the Vietnam War is getting 70-75% of the resource 
allocation. The subcommittee has heard concerns that this resource 
allocation needs to be readjusted because the resource allocation 
priority on Southeast Asia has not resulted in increased 
identifications there, and that reallocation of some resources to other 
previous conflicts may result in an overall increase in recovery and 
identification of Americans MIAs from all conflicts. Do DPMO and JPAC 
believe the resource allocation and ``most recent first'' strategy need 
to be revised? If so, how?
    Ambassador Ray. DPMO, with JPAC's assistance. is currently 
reassessing the ``most recent conflict first'' concept and the 65-20-15 
formula. We are developing guidance that devotes a meaningful, serious, 
and balanced level of effort to account for Americans missing in past 
conflicts, regardless of the conflict, and one that recognizes this is 
an enduring mission that will go on for the foreseeable future. As part 
of this effort, we are discussing overarching guidance that will apply 
to all conflicts, as well as a summary of the direction for each 
conflict, based on its own unique requirements. JPAC is prepared to re-
adjust their accounting operations in the field based on the revised 
national-level guidance. We look forward to sharing the results of our 
deliberations with the Committee as soon as they are complete.
    Mr. McHugh. Ambassador Ray, the purpose of the outreach program is 
to contact persons authorized to direct the disposition of remains and 
acquire reference DNA specimens from the families of Americans who are 
MIAs. Currently outreach to families to obtain family reference samples 
are the responsibility of the military services' casualty offices. 
Without such DNA reference samples, according to a July 1995 Defense 
Science Board Task Force report, many identifications (500 cases from 
Southeast Asia, 200 remains that were repatriated by North Korea, and 
865 unidentified American remains from Korea interred in the National 
Memorial Cemetery of the Pacific in Honolulu, Hawaii) may not be 
identified. However, given the many competing demands on the service 
casualty offices, there is concern that these offices do not have the 
resources to conduct effective outreach programs to family members to 
obtain DNA reference samples. For example, JPAC forensic scientists 
estimate that three to four years elapse between the time a sample is 
requested and when it is received. To what extent has the DPMO or JPAC 
raised the issue of adequacy of support in the collection of family 
reference samples by the casualty offices to the senior leadership of 
the Department? What has been the response?
    Ambassador Ray. DPMO has kept the Department's leadership apprised 
of progress on collecting DNA family reference samples, on all 
unaccounted for service members from World War II forward, including 
the significant advances the service casualty offices have achieved in 
recent years. To improve collection even further, DPMO is currently 
leading an effort involving JPAC, the service casualty offices, the 
Armed Forces DNA Laboratory (AFDIL), and the Joint Staff to review all 
aspects of the family reference sample collection process, identify 
gaps, and recommend solutions. We anticipate this review will result in 
further improvement in the efforts by all the organizations involved. 
The Department's leadership supports this effort.
    Mr. McHugh. Ambassador Ray, the purpose of the outreach program is 
to contact persons authorized to direct the disposition of remains and 
acquire reference DNA specimens from the families of Americans who are 
MIAs. Currently outreach to families to obtain family reference samples 
are the responsibility of the military services' casualty offices. 
Without such DNA reference samples, according to a July 1995 Defense 
Science Board Task Force report, many identifications (500 cases from 
Southeast Asia, 200 remains that were repatriated by North Korea, and 
865 unidentified American remains from Korea interred in the National 
Memorial Cemetery of the Pacific in Honolulu, Hawaii) may not be 
identified. However, given the many competing demands on the service 
casualty offices, there is concern that these offices do not have the 
resources to conduct effective outreach programs to family members to 
obtain DNA reference samples. For example, JPAC forensic scientists 
estimate that three to four years elapse between the time a sample is 
requested and when it is received. Should DPMO and/or JPAC have some 
responsibility for collection of family reference samples?
    Ambassador Ray. Both DPMO and JPAC have responsibilities in the DNA 
family reference sample collection process on all unaccounted-for 
service members from World War II onward. DPMO is responsible for 
oversight and coordination of the entire process for all the 
organizations that play a role, such as the service casualty offices, 
AFDIL, and JPAC. JPAC is responsible for identifying cases for which it 
requires samples and informing the service casualty offices of these 
requirements. The service casualty offices are responsible for 
contacting appropriate DNA family reference donors and providing them 
with collection kits. We believe that our ongoing review will result in 
improvements in each organization's performance.
    Mr. McHugh. Ambassador Ray, the purpose of the outreach program is 
to contact persons authorized to direct the disposition of remains and 
acquire reference DNA specimens from the families of Americans who are 
MIAs. Currently outreach to families to obtain family reference samples 
are the responsibility of the military services' casualty offices. 
Without such DNA reference samples, according to a July 1995 Defense 
Science Board Task Force report, many identifications (500 cases from 
Southeast Asia, 200 remains that were repatriated by North Korea, and 
865 unidentified American remains from Korea interred in the National 
Memorial Cemetery of the Pacific in Honolulu, Hawaii) may not be 
identified. However, given the many competing demands on the service 
casualty offices, there is concern that these offices do not have the 
resources to conduct effective outreach programs to family members to 
obtain DNA reference samples. For example, JPAC forensic scientists 
estimate that three to four years elapse between the time a sample is 
requested and when it is received. What should be done to improve the 
response time in obtaining family reference samples of DNA?
    Ambassador Ray. The response time for obtaining DNA family 
reference samples is based on several factors, and even in relatively 
straightforward cases, collection can take several months. In those 
instances in which the service casualty offices must search for 
suitable donors, successful genealogic research can take 60-90 days. 
Casualty officers must then make contact with the donor, explain the 
requirement, and send a collection kit to the family. In some 
instances, they must make repeated contact to ensure the donor provides 
a sample and sends it to AFDIL. In cases where no suitable donor can be 
found despite genealogical research, or appropriate donors will not 
consent to provide a sample, the response time can be protracted as the 
service casualty offices seek other solutions. Despite a great amount 
of hard work by dedicated persons, the effort can stall altogether.
    We anticipate that our ongoing review of the DNA family reference 
sample process will result in some improvements in response times, but 
in many instances, finding suitable donors who are willing to provide 
samples will inherently involve a lengthy process, and sometimes we 
will not succeed.
    Mr. McHugh. Ambassador Ray, why does DPMO classify cases as ``No 
Further Pursuit'' (NFP) when there are indeed leads that have yet to be 
followed in some of these cases? I have been told by POW/MIA families 
that DPMO assigns the NFP classification to cases where all leads have 
been followed, every avenue of investigation has been pursued and there 
is simply nothing more than can be done. However, I am also told that 
even in NFP cases where new information comes up or leads are being 
followed, the cases remains classified as NFP. Can you explain? On what 
basis does DPMO move a case from the NFP category? How does a family 
get the NFP classification changed?
    Ambassador Ray. To maximize our manpower and other resources, DPMO 
analysts, in coordination with JPAC analysts and representatives from 
the Defense Intelligence Agency and the Life Sciences Equipment 
Laboratory, prioritize our investigative and recovery work in Southeast 
Asia. Cases are put in the ``no further pursuit'' (NFP) category only 
when it is the consensus of the analysts that in investigating the 
leads they have developed clear and convincing evidence demonstrating 
that the remains of the American are unrecoverable and further efforts 
on the case would be futile. Nevertheless, should we receive promising 
new information that indicates the remains are recoverable, we will 
investigate that information. If, based on this new information, it 
appears that the remains may be recoverable, the case will be removed 
from the NFP category.
    Mr. McHugh. Ambassador Ray, family members have told me that they 
have no recourse when they feel that DPMO is making an error or 
overlooking pertinent information in a case of an unaccounted for 
service member. What is the appeal or review mechanism or process in 
such cases?
    Ambassador Ray. In my tenure at DPMO, I have found the office to be 
one of the most transparent offices in the United States Government. We 
incorporate, at all levels, the families' views, as well as those of 
all other elements of the accounting community, in order to achieve the 
fullest possible accounting. Steps involving every aspect of a case are 
immediately reported to the primary next of kin through the service 
casualty offices. Should they wish to appeal any part of our approach 
to accounting, they simply need to communicate their views to me, and I 
will ensure these are received and reviewed at all levels before 
issuing a response.
    Mr. McHugh. Admiral Crisp, achieving the fullest possible 
accounting for the prisoners of war and missing from the Nation's past 
and current wars is a national priority and requires an effort that is 
worldwide in scope. Furthermore, given the large numbers of service 
members unaccounted for from past wars, the effort required to achieve 
the fullest possible accounting will, among other things, require world 
class resources and structure. I am concerned, however, that neither 
DOD nor Pacific Command has a strategy, built the required 
organizations and structure, or committed the resources necessary to 
achieve the national objective of the fullest possible accounting. My 
concerns are based on the following: - The current DOD strategy treats 
the WW II accounting mission remains ``very much a work in progress,'' 
with no coherent answers apparent as to how the nation will achieve the 
fullest possible accounting for this war. - DOD and JPAC funding and 
resourcing levels for the next five years are structured ``to cover 
operations at the current level for the Vietnam Conflict, and the 
Korean War, with the exception of any DPRK [North Korean] 
operations&.and provides for expanding the level of effort for World 
War II&.,'' according to a DOD report provided to the SASC a year ago 
(July 2007). - Funding DPMO and JPAC for the ``current level of 
effort'' does not address the evidence of significant unfunded 
requirements. - Resourcing allocation rules provide up to 70% of those 
available to the most recent wars, leaving the largest accounting 
requirements for Korea and World War II to share the remainder. - 
Reorganization decisions that gave US Pacific Command (with its 
subordinate units at JPAC/Central Identification Lab) a world-wide 
accounting mission, without giving the either PACOM or the Navy any 
additional resources to fund the mission, also eliminated the oversight 
of the remains recovery and identification process previously exercised 
on a world-wide basis by the Army as DOD's executive agent for mortuary 
affairs. It is not clear whether there is any effort to examine how the 
Army's significant capabilities could be reintegrated into the 
accounting effort. Given those concerns, how should a future accounting 
effort be restructured and resourced to achieve the fullest possible 
accounting on a worldwide scale? [Question 30, for cross-reference.]
    Admiral Crisp. The October 2006 DoD Strategy to Recover and Account 
for Missing Personnel, identifies a level of effort by the following: 
65% for the Vietnam War, 20% for the Korean War and 15% for World War 
II. This strategy is currently being reviewed by DPMO. JPAC is 
structured to accomplish our mission effectively and efficiently, now 
and in the future, given where the preponderance of unaccounted for 
individuals is located. We conduct an average of 70 team deployments 
and establish 70 identifications per year. JPAC currently has only one 
significant unfunded requirement: helicopter costs in Southeast Asia 
have increased substantially which has resulted in our submission of a 
POM 2010 requirement for $9M to cover the estimated costs for fiscal 
year 2010 and beyond. When JPAC was established in October 2003, the US 
Pacific Command and Navy received all funding originally programmed for 
the US Army's Central Identification Laboratory, Hawaii. JPAC is in 
compliance of DoD Directives, Instructions, and Regulations as 
established by the DoD Executive Agent for Mortuary Affairs and uses 
the assistance of Army Mortuary' Affairs offices in some theaters.
    Mr. McHugh. Admiral Crisp, the budget justification material sent 
to us with the fiscal year 2009 Department of Defense request indicates 
that DPMO, JPAC and the other organizations in the accounting community 
are funded to meet 100% of their requirements, not only in 2009, but 
also through 2013. I would like to know more about the 
comprehensiveness of the requirements determination process that both 
of you go through, because it seems to me that there are indications 
that both your organizations may have substantial unfunded requirements 
for missions, money and personnel. There are significant numbers of 
remains (1200-1400) already at the Central Identification Lab in 
Hawaii, awaiting identifications. To what extent does the FY 09-13 
budget submission provide the resources to substantially reduce the 
number of remains awaiting identification? Under the FY 09-13 funding 
levels, what will be the number of remains at CIL still awaiting 
identification in 2013? [Question 31, for cross-reference.]
    Admiral Crisp. JPAC follows the same rigorous capability/capacity 
based requirements determination process as established throughout the 
DoD. The foundation for JPAC's accounting mission is established in 
Title 10 United States Code, Sections 1501 through 1513, the Missing 
Service Personnel Act and DoD Directive 2310.7. As stated in Question 
30, JPAC currently has only one significant unfunded requirement; 
helicopter costs in Southeast Asia have increased substantially which 
has resulted in our submission of a POM 2010 requirement for $9M to 
cover the estimated costs for fiscal year 2010 and beyond. We are 
programmed for an FY2010/11 MILCON project which will significantly 
increase our laboratory facilities thereby potentially reducing the 
number of remains awaiting identification. I cannot predict the number 
of remains that will be awaiting identification in 2013 primarily 
because JPAC cannot forecast which counties we'll have access to or the 
quantity or quality of remains recovered at future sites.
    Mr. McHugh. Admiral Crisp, the budget justification material sent 
to us with the fiscal year 2009 Department of Defense request indicates 
that DPMO, JPAC and the other organizations in the accounting community 
are funded to meet 100% of their requirements, not only in 2009, but 
also through 2013. I would like to know more about the 
comprehensiveness of the requirements determination process that both 
of you go through, because it seems to me that there are indications 
that both your organizations may have substantial unfunded requirements 
for missions, money and personnel. JPAC is authorized 18 field teams, 
but we are told that they have sufficient manning for only 15. Does the 
FY09-13 budget request provide JPAC with full manning of all 18 teams?
    Admiral Crisp. The JPAC budget request provides for 18 teams of 
authorized end strength and requisite support staff. Historically, the 
DoD mans Joint organizations at 85% to 92%; currently our military 
manning is at 92%. As stated in question 31, JPAC follows the same 
rigorous capability/capacity based requirements determination process 
as established throughout the DoD. The foundation for JPAC's accounting 
mission is established in Title 10, United States Code, Sections 1501 
through 1513, the Missing Service Personnel Act and DoD Directive 
2310.7. As stated in Question 30, JPAC currently has only one 
significant unfunded requirement; helicopter costs in Southeast Asia 
have increased substantially which has resulted in our submission of a 
POM 2010 requirement for $9M to cover the estimated costs for fiscal 
year 2010 and beyond.
    Mr. McHugh. Admiral Crisp, the budget justification material sent 
to us with the fiscal year 2009 Department of Defense request indicates 
that DPMO, JPAC and the other organizations in the accounting community 
are funded to meet 100% of their requirements, not only in 2009, but 
also through 2013. I would like to know more about the 
comprehensiveness of the requirements determination process that both 
of you go through, because it seems to me that there are indications 
that both your organizations may have substantial unfunded requirements 
for missions, money and personnel. If, as we are told, the field 
research and recovery effort by JPAC requires existing teams to 
maintain a very high optempo, a deployment-to-dwell time ratio of 1:1, 
to what extent does the FY 09-13 budget request provide additional JPAC 
manpower to reduce that high optempo?
    Admiral Crisp. The FY2008 average deployment tempo for field teams 
is 113 days, less than a 1:1 ratio of 176 days. Some senior team 
leaders were deployed at a higher average of close to 1:1, as many 
times senior team leaders deployed earlier or were deployed on 
additional small team missions. JPAC has 18 team leader authorizations 
and 13 currently assigned. All team leader positions are O-3 billets; 
however, we recently accepted two O-2 candidates. My recent command 
guidance, for future planning, is to not deploy personnel for longer 
than 160 days each year in order to keep the operations tempo below 
1:1. Our military manning is 92%, which is fully mission capable. The 
FY09/13 budget does not request additional manpower to reduce the high 
operations tempo. JPAC is using the military to civilian billet 
conversion, initiated in fiscal year 2008 and extend over a three year 
period with all actions to be complete by the end fiscal year 2010, as 
an opportunity to shape the quality and quantity of the staff; 
specifically adding four forensic anthropologists to the JPAC 
laboratory in order to mitigate the operations tempo on our scientific 
workforce. As noted in answers to previous questions, JPAC follows the 
same rigorous capability/capacity based requirements determination 
process as established throughout the DoD. The foundation for JPAC's 
accounting mission is established in Title 10, United States Code. 
Sections 1501 through 1513, the Missing Service Personnel Act and DoD 
Directive 2310.7. As stated in Question 30, JPAC currently has only one 
significant unfunded requirement; helicopter costs in Southeast Asia 
have increased substantially which has resulted in our submission of a 
POM 2010 requirement for $9M to cover the estimated costs for fiscal 
year 2010 and beyond.
    Mr. McHugh. Admiral Crisp, the budget justification material sent 
to us with the fiscal year 2009 Department of Defense request indicates 
that DPMO, JPAC and the other organizations in the accounting community 
are funded to meet 100% of their requirements, not only in 2009, but 
also through 2013. I would like to know more about the 
comprehensiveness of the requirements determination process that both 
of you go through, because it seems to me that there are indications 
that both your organizations may have substantial unfunded requirements 
for missions, money and personnel. We are told that JPAC forensic 
anthropologists spend about 17% of their time in the lab and 47% on 
deployments/field recoveries, compared to a DPMO standard, we are told, 
that indicates they should be spending about 50% of their time in the 
lab. Does JPAC have sufficient anthropologists to meet all mission 
requirements? Does the FY09-13 budget request provide the resources to 
allow JPAC to meet the 50% objective?
    Admiral Crisp. The DPMO Strategy dated October 2006 states 50% of 
the anthropologists' time should be spent ``engaged in identifying 
remains''. The identification process actually begins in the field at 
the excavation site. JPAC has not submitted a budget request for FY09-
13 to meet a 50% objective. However, in FY 2009, I will increase 
forensic anthropologists' billets to 22 from the current 18; this is 
accommodated from within my overall end strength. Hiring these 
additional personnel will increase the percentage of time the 
anthropologists spend engaged in identifying remains. Historically, 
JPAC has relied on the ORISE fellowship program to provide additional 
deploying forensic anthropologists. We have initiated several programs 
to improve retention and recruiting. A report of actions taken will be 
forwarded to the US Pacific Command in October 2008 at the conclusion 
of the recruiting and retention review. We will reevaluate the success 
of these programs in September 2009. As stated in previous questions, 
JPAC follows the same rigorous capability/capacity based requirements 
determination process as established throughout the DoD. The foundation 
for JPAC's accounting mission is established in Title 10, United States 
Code, Sections 1501 through 1513, the Missing Service Personnel Act and 
DoD Directive 2310.7. As stated in Question 30, JPAC currently has only 
one significant unfunded requirement: helicopter costs in Southeast 
Asia have increased substantially which has resulted in our submission 
of a POM 2010 requirement for $9M to cover the estimated costs for 
fiscal year 2010 and beyond.
    Mr. McHugh. Admiral Crisp, the budget justification material sent 
to us with the fiscal year 2009 Department of Defense request indicates 
that DPMO, JPAC and the other organizations in the accounting community 
are funded to meet 100% of their requirements, not only in 2009, but 
also through 2013. I would like to know more about the 
comprehensiveness of the requirements determination process that both 
of you go through, because it seems to me that there are indications 
that both your organizations may have substantial unfunded requirements 
for missions, money and personnel. Do JPAC and DPMO maintain an 
unfunded requirements list? Can DPMO and JPAC provide that to us?
    Admiral Crisp. As stated in previous questions, JPAC follows the 
same rigorous capability/capacity based requirements determination 
process as established throughout the DoD. The foundation for JPAC's 
accounting mission is established in Title 10, United States Code, 
Sections 1501 through 1513, the Missing Service Personnel Act and DoD 
Directive 2310.7. As stated in Question 30, JPAC currently has only one 
significant unfunded requirement; helicopter costs in Southeast Asia 
have increased substantially which has resulted in our submission of a 
POM 2010 requirement for $9M to cover the estimated costs for fiscal 
year 2010 and beyond.
    Mr. McHugh. Admiral Crisp, the DOD personnel accounting strategy 
allocates the available resources (largely a function of the dollars 
available), as follows: 65% for Vietnam War, 20% for Korean War (North 
Korea), and 15% for World War II. What's more, because access to North 
Korea is suspended, the Vietnam War is getting 70-75% of the resource 
allocation. The subcommittee has heard concerns that this resource 
allocation needs to be readjusted because the resource allocation 
priority on Southeast Asia has not resulted in increased 
identifications there, and that reallocation of some resources to other 
previous conflicts may result in an overall increase in recovery and 
identification of Americans MIAs from all conflicts. Is the DOD 
resource allocation and ``most recent first'' approach consistent with 
the government's objective of achieving the fullest possible accounting 
for all wars?
    Admiral Crisp. JPAC tracks the execution of the DoD Personnel 
accounting strategy by the number of teams deployed vice the dollars 
available. The Deputy Assistant Secretary of Defense for POW/Missing 
Personnel Affairs is currently reassessing the current strategy placing 
emphasis on the most recent conflict, along with the level of effort 
(65-20-15) currently directed within the strategy. JPAC conducts the 
bulk of its accounting work in Southeast Asia based on the guidance and 
direction provided by OSD. We look forward to the DoD reassessment of 
the current guidance and level-of-effort for personnel accounting and 
are prepared to adjust our accounting operations based on the revised 
national-level guidance.
    Mr. McHugh. Admiral Crisp, the DOD personnel accounting strategy 
allocates the available resources (largely a function of the dollars 
available), as follows: 65% for Vietnam War, 20% for Korean War (North 
Korea), and 15% for World War II. What's more, because access to North 
Korea is suspended, the Vietnam War is getting 70-75% of the resource 
allocation. The subcommittee has heard concerns that this resource 
allocation needs to be readjusted because the resource allocation 
priority on Southeast Asia has not resulted in increased 
identifications there, and that reallocation of some resources to other 
previous conflicts may result in an overall increase in recovery and 
identification of Americans MIAs from all conflicts. Do DPMO and JPAC 
believe the resource allocation and ``most recent first'' strategy need 
to be revised? If so, how?
    Admiral Crisp. The Deputy Assistant Secretary of Defense for POW/
Missing Personnel Affairs is currently reassessing the current strategy 
placing emphasis on the most recent conflict, along with the level of 
effort (65-20-15) currently directed within the strategy. We look 
forward to the DoD reassessment of the current guidance and level-of-
effort for personnel accounting and are prepared to adjust our 
accounting operations based on revised national-level guidance. JPAC 
will then review the new guidance to determine the appropriate manpower 
and funding resources required to conduct field and laboratory work, as 
well as any environmental and political challenges our operations face.
    Mr. McHugh. Admiral Crisp, the purpose of the outreach program is 
to contact persons authorized to direct the disposition of remains and 
acquire reference DNA specimens from the families of Americans who are 
MIAs. Currently outreach to families to obtain family reference samples 
are the responsibility of the military services' casualty offices. 
Without such DNA reference samples, according to a July 1995 Defense 
Science Board Task Force report, many identifications (500 cases from 
Southeast Asia, 200 remains that were repatriated by North Korea, and 
865 unidentified American remains from Korea interred in the National 
Memorial Cemetery of the Pacific in Honolulu, Hawaii) may not be 
identified. However, given the many competing demands on the service 
casualty offices, there is concern that these offices do not have the 
resources to conduct effective outreach programs to family members to 
obtain DNA reference samples. For example, JPAC forensic scientists 
estimate that three to four years elapse between the time a sample is 
requested and when it is received. To what extent has the DPMO or JPAC 
raised the issue of adequacy of support in the collection of family 
reference samples by the casualty offices to the senior leadership of 
the Department? What has been the response?
    Admiral Crisp. While the 1995 Defense Science Board report noted 
identification of unidentified Americans from the Korean War interred 
in the National Memorial Cemetery of the Pacific could likely be 
assisted by DNA, subsequent forensic analysis of disinterred remains 
have determined the formaldehyde used by the Central Identification 
Unit in Kokura, Japan has inhibited the extraction of usable DNA. JPAC 
began tracking Family Reference Sample request dates in 2005; of the 
482 requests submitted to the Services in 2005, 219 have not yet been 
obtained for a variety of reasons. As stated in previous answers, DPMO 
is leading a community wide study of this issue. The results of the 
study will be provided to the Accounting Community's Senior Study Group 
and Senior Leadership Council. These groups are comprised of executive 
level government officials from throughout the accounting community. 
The accounting community includes operational organizations, the Joint 
Staff, Combatant Commands, and the Services. The results of the Family 
Reference Sample process review will be presented to a Senior 
Leadership Council; Senior Executive Service and General/Flag officers 
from within the accounting community. Additionally, as stated in 
question 27, the adequacy of support for the collection of family 
references samples is not solely a Service issue; it cuts across many 
organizations and requires support throughout the Department.
    Mr. McHugh. Admiral Crisp, the purpose of the outreach program is 
to contact persons authorized to direct the disposition of remains and 
acquire reference DNA specimens from the families of Americans who are 
MIAs. Currently outreach to families to obtain family reference samples 
are the responsibility of the military services' casualty offices. 
Without such DNA reference samples, according to a July 1995 Defense 
Science Board Task Force report, many identifications (500 cases from 
Southeast Asia, 200 remains that were repatriated by North Korea, and 
865 unidentified American remains from Korea interred in the National 
Memorial Cemetery of the Pacific in Honolulu, Hawaii) may not be 
identified. However, given the many competing demands on the service 
casualty offices, there is concern that these offices do not have the 
resources to conduct effective outreach programs to family members to 
obtain DNA reference samples. For example, JPAC forensic scientists 
estimate that three to four years elapse between the time a sample is 
requested and when it is received. Should DPMO and/or JPAC have some 
responsibility for collection of family reference samples?
    Admiral Crisp. As stated in question 28, JPAC is responsible for 
providing reference sample requirements and prioritization of reference 
samples for collection to the Service Casualty Offices and the Armed 
Forces DNA Identification Laboratory. JPAC does not recommend any 
additional responsibility to interface directly with families to obtain 
their reference samples. DPMO is currently conducting a review of the 
Family Reference Sample process. The results will be presented to the 
DPMO led Senior Study Group comprised of executive level government 
officials from throughout the accounting community. The accounting 
community includes operational organizations, the Joint Staff, 
Combatant Commands, and the Services. The results of the Family 
Reference Sample process review will then be presented to a Senior 
Leadership Council for action; Senior Executive Service and General/
Flag officers from within the accounting community. The adequacy of 
support for the collection of family references samples is not solely a 
Service issue: it cuts across many organizations and requires support 
throughout the Department.
    Mr. McHugh. Admiral Crisp, the purpose of the outreach program is 
to contact persons authorized to direct the disposition of remains and 
acquire reference DNA specimens from the families of Americans who are 
MIAs. Currently outreach to families to obtain family reference samples 
are the responsibility of the military services' casualty offices. 
Without such DNA reference samples, according to a July 1995 Defense 
Science Board Task Force report, many identifications (500 cases from 
Southeast Asia, 200 remains that were repatriated by North Korea, and 
865 unidentified American remains from Korea interred in the National 
Memorial Cemetery of the Pacific in Honolulu, Hawaii) may not be 
identified. However, given the many competing demands on the service 
casualty offices, there is concern that these offices do not have the 
resources to conduct effective outreach programs to family members to 
obtain DNA reference samples. For example, JPAC forensic scientists 
estimate that three to four years elapse between the time a sample is 
requested and when it is received. What should be done to improve the 
response time in obtaining family reference samples of DNA?
    Admiral Crisp. As stated in question 29, there are two areas which 
could improve the Family Reference Sample process: 1) Completion of the 
process improvement study being conducted by the DPMO led Senior Study 
Group. 2) A greater awareness of families of the importance of family 
reference samples to the identification process as well as leveraging 
Veteran Service Organizations to assist in locating families of the 
unaccounted for individuals. Leveraging Veteran Service Organizations 
does not include contacting families.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. SNYDER
    Dr. Snyder. What processes are in place to ensure that families are 
notified when there is change of status regarding a service member? Is 
there a process for determining whether or not a family wants to be 
notified of a change of status, in order to prevent unnecessary 
emotional stress?
    Ambassador Ray. The Department has longstanding practices and 
procedures to notify family members when a change in their loved one's 
status is about to take place. Prior to any status change, i.e. a 
pending identification of remains, the respective service casualty 
office is in close contact with the designated Primary Next of Kin 
(PNOK) and/or the Person Authorized to Direct Disposition (PADD) of 
remains. Once JPAC identifies remains it sends that information to the 
appropriate service casualty officer. The service casualty officer 
reviews the information for completeness and arranges a time to meet 
with the family to brief them on the identification process and the 
identification of their loved one's remains. No change in status is 
made until the PNOK formally accepts the identification of the remains.
    We are obligated to notify all families about changes in status. 
The service casualty offices have been in contact with the families of 
our missing for many years and consequently know best which particular 
family member to relay this information to and the appropriate manner 
in which to do it. DPMO has a team of four military personnel (three 
officers and one NCO) who work in DPMO's External Affairs (EA) 
Directorate and serve as liaisons to the service casualty offices. All 
requests for information made by the services, on behalf of their 
family members, to DPMO come through the EA liaison team, which ensures 
the questions are addressed by the analytic and/or policy staff within 
the office. Conversely, information obtained or developed by DPMO that 
relates to a specific case is passed from DPMO through the EA officers 
to their counterparts in the services for forwarding to the appropriate 
family.
    Dr. Snyder. Should DPMO and JPAC be given flexibility to shift the 
number of missions they allocate to a given country based on the rate 
of remains recovered per team?
    Ambassador Ray. We have sufficient flexibility to assign teams 
around the world. Decisions on where to assign teams are based on many 
criteria. These include sites where we may find information on 
Americans who were prisoners of war, or are believed to be good 
candidates to have been captured, yet we lack convincing evidence of 
death; remains are exposed or are in imminent danger of loss; we have 
sufficient information to support a productive excavation; ability to 
obtain access to the area or country; existing commitments to 
individual countries or families; and weather and other logistical 
considerations.
    As a practical matter, allocating teams based solely on the rate of 
remains recovered per team in a given country would likely result in 
focusing chiefly on multi-crew World War II aircraft losses. In fact as 
long as we are not operating in North Korea, a decision made solely on 
this criterion would mean that we ceased all Korean War, Vietnam War, 
and Cold War accounting operations.
    Dr. Snyder. There is anecdotal evidence that North Korea regularly 
disturbs or even falsifies sets of remains that they lead JPAC teams 
to. Should DPMO and JPAC be given flexibility to cancel missions to 
North Korea when they become particularly uncooperative?
    Ambassador Ray. To date, we have recovered U.S. remains on every 
remains recovery operation undertaken in North Korea. In some cases, 
remains have been planted and sites disturbed prior to our arrival, 
apparently to ensure that our excavations always result in the recovery 
of remains. We have repeatedly asked the government of North Korea not 
to engage in this activity, even if it means that an excavation might 
result in our teams not finding remains, and we will continue to do so.
    Nonetheless, it is our assessment that operations have been 
sufficiently productive to justify continuation. DPMO and JPAC 
personnel working in North Korea are responsible for reporting daily to 
the Department and USPACOM. Should conditions deteriorate to an 
unacceptable degree, the Department is prepared to reassess available 
options based on the observations and recommendations of both DPMO and 
JPAC.
    Dr. Snyder. There is anecdotal evidence that North Korea regularly 
uses funding we grant them to pay for the administration and personnel 
costs of researching and recovering remains in unintended ways, like 
building barracks. Are there any auditing controls to prevent these 
abuses? Does DPMO or JPAC need additional authorities or greater 
flexibility in regulations to negotiate with North Korea to prevent 
these abuses?
    Ambassador Ray. At this time, neither DPMO nor JPAC requires 
additional authorities or greater flexibility in regulations relative 
to negotiations. We negotiate on a government-to-government basis with 
many countries around the world, to include North Korea. We routinely 
reimburse these governments for their expenses, and we rely on them to 
disburse those funds internally, according to their own systems of law 
and governance.
    The Deputy Assistant Secretary of Defense for POW/Missing Personnel 
Affairs has the authority to negotiate reimbursement for operational 
expenses associated with remains recovery operations in North Korea, 
and we make every effort to ensure that the negotiated payment fairly 
reflects actual expenses. In addition, during operations JPAC has the 
authority to deny requests for any additional reimbursement beyond that 
agreed to during negotiations.
    Dr. Snyder. Could you discuss the number of U.S. personnel that 
have been lost in support of the JPAC mission, including Central 
Identification Laboratory-Hawaii (CILHI) and Task Force Full 
Accounting? Could you discuss the risk assessment undertaken by JPAC in 
evaluating whether or not to pursue leads, balancing the mission 
against service members' safety? In particular, could you discuss risk 
assessment of missions in North Korea? If a service member is injured 
there, how is that handled? Would they be treated there or in South 
Korea? Are there emergency cross border flight agreements in place for 
these missions?
    Admiral Crisp. (1) A total of eight personnel have lost their lives 
while conducting the fullest possible accounting mission; one 
individual was shot on the third day of a recovery mission in Vietnam 
on 15 December 1973 and seven individuals were killed in a helicopter 
accident in Vietnam on 07 April 2001.
    (2) Risk mitigation is a significant aspect of our mission planning 
and decisions prior to any mission.

        a) General: The JPAC mission deploys military and civilian 
        personnel worldwide to some modem areas but most are very 
        austere. We conduct a thorough risk assessment for every 
        mission based on location, difficulty of excavation, difficulty 
        of site, dangers associated with the excavation, communications 
        capabilities, mission requirements, and professional experience 
        and capabilities of the individual team members. Each area has 
        different risks associated. Risk is assessed as Low, Moderate, 
        High, or Extremely High based on such things as terrain, flora/
        fauna, weather, communications, medical care available, the 
        current political situation in the planned area of operation, 
        crime levels, cultural considerations, Intelligence 
        information, background information from US Embassies and 
        previous lessons learned from past operations.

        b) Communications: An essential element for team safety is 
        communications capabilities. With few exceptions, our teams 
        deploy with a standard communication package which includes 
        satellite communications equipment, VHF/HF equipment, repeater 
        systems, and worldwide cell phones. Typically, our 
        communications capabilities are excellent and our host nation 
        counterparts approve the use of our standard equipment list. 
        That was not the case, however, in North Korea. Communications 
        were severely limited; satellite and cell phone communications 
        were not permitted. JPAC was reliant on short range HF radio 
        communications. Reliable and redundant communications has been 
        a topic of past negotiations and will continue to be a 
        significant subject for our future negotiations.

        c) Medical: Part of safety risk assessment is the medical 
        officer's evaluation of the county's medical capabilities and 
        assets. This evaluation includes: hospitals and clinics 
        available for treatment; transportation for MEDEVACS; times 
        involved to evacuate to nearest care; closest US Military 
        Treatment Facility (MTF); dangers involved on missions such as 
        high altitude sites, underwater sites, and mountaineering 
        sites; equipment needed to evacuate in an emergency such as 
        jungle penetrators, winch operations, hyperbaric dive chambers; 
        dangers involved at site due to diseases, animals, flora & 
        fauna or other natural risks. JPAC goes to great lengths to 
        mitigate the risks in these austere environments by conducting 
        advanced training, placing helicopters at the site for 
        MEDEVACs, a rigorous medical screening program including 
        immunizations, supplying advanced equipment, such as Hyperlite 
        portable dive chambers, and staffing missions with highest 
        trained medics in DOD. Once all factors have been reduced to 
        the lowest level, the JPAC staff makes recommendations to the 
        commander for a decision. JPAC's policy is to prevent the loss 
        of life while searching for remains.

    (3) Several factors play into the DPRK mission starting with the 
remote locations and the poor medical capabilities in country. For 
these reasons, a US medical doctor has accompanied the team for 
treatment at the site. There were many restrictions placed on the 
mission by requirements for DPRK military to accompany all aspects of 
the mission and escort personnel during a medical emergency. The 
MEDEVAC plan was limited by the DPRK restrictions of not flying close 
to the DMZ border with ROK. This required an injured patient to flown 
by DPRK military helicopter to the airfield at Pyongyang for transfer 
to ambulance. The patient would then be driven to Panmunjom for an 
ambulance transfer to a ROK or US ambulance. Depending on the severity 
of the injuries, the patient would be driven or flown via helicopter to 
the 121st General Hospital (MTF) in Seoul, ROK.
    (4) Due to past restrictions on flying near the DMZ by the DPRK 
government, there were no cross border flight agreements in place and a 
MEDEVAC would take place as described above.
    Dr. Snyder. Should DPMO and JPAC be given flexibility to shift the 
number of missions they allocate to a given country based on the rate 
of remains recovered per team?
    Admiral Crisp. Allocating missions to a given country based on the 
rate of remains recovered per team constrains the personnel accounting 
community to focus primarily on World War II, where aircraft employing 
many crewmembers were used extensively. Most Korean War losses were 
ground losses, and the majority of the remaining Vietnam War losses 
were either single- or dual-seat aircraft. The majority of Cold War 
losses were also multi-crew aircraft losses. A shift toward ``rate of 
remains recovered per team'' would focus recovery operations on World 
War II and potentially Cold War losses dropping the priority for Korean 
War and Vietnam War accounting operations. JPAC uses the following 
established criteria in the conduct of remains recovery:

        <bullet>  Last Known Alive case (Southeast Asia only)

        <bullet>  Site with remains recovered/received

        <bullet>  Site in jeopardy of imminent disturbance or 
        destruction

        <bullet>  ``Open'' excavation sites

        <bullet>  Correlated/associated site to a known loss incident 
        and evidence suggesting the presence of remains

        <bullet>  Sites that do not meet the above criteria; (i.e. 
        uncorrelated sites, ground losses, witness only statements with 
        no supporting physical evidence)

        <bullet>  Resolved incidents in which local villagers' 
        recovered additional remains

    The above criteria provides JPAC sufficient flexibility to plan, 
prioritize, and conduct field operations. They also allow JPAC to 
consider several other factors such as political and environmental 
challenges to ensure the right priority is placed on each case.
    Dr. Snyder. There is anecdotal evidence that North Korea regularly 
disturbs or even falsifies sets of remains that they lead JPAC teams 
to. Should DPMO and JPAC be given flexibility to cancel missions to 
North Korea when they become particularly uncooperative?
    Admiral Crisp. Host nations provide for the safety and security of 
US teams; our operations cannot be accomplished without their 
cooperation with investigation and recovery missions. As the 
operational commander, the Commander US Pacific Command has given me 
the authority to immediately cease operations in any country should the 
need arise.
    Dr. Snyder. There is anecdotal evidence that North Korea regularly 
uses funding we grant them to pay for the administration and personnel 
costs of researching and recovering remains in unintended ways, like 
building barracks. Are there any auditing controls to prevent these 
abuses? Does DPMO or JPAC need additional authorities or greater 
flexibility in regulations to negotiate with North Korea to prevent 
these abuses?
    Admiral Crisp. DPMO negotiates with foreign governments for access 
and JPAC then negotiates agreement on appropriate reimbursement for 
services rendered to the US in the conduct of the personnel accounting 
work. In every instance, we seek to provide fair and reasonable 
compensation based on our collective experiences and lessons learned 
over the past two decades. It is up to the host nation to disburse the 
funds provided by the US to relevant agencies and companies, according 
to their internal procedures and law. If additional authorities or 
flexibilities are required in any nation, JPAC will consult with the US 
Pacific Command and coordinate with DPMO.

                                  <all>

</pre></body></html>
